No. 20-138

In the Supreme Court of the United States
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., PETITIONERS
v.
SIERRA CLUB, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

JOINT APPENDIX

JEFFREY B. WALL
Acting Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

JOSHUA A. KLEIN
Deputy Solicitor General
California Department of Justice
1515 Clay Street, 20th Floor
Oakland, CA 94612
joshua.klein@doj.ca.gov
(510) 879-0756
DROR LADIN
American Civil Liberties Union
Foundation
125 Broad Street, 18th Floor
New York, NY 10004
dladin@aclu.org
(212) 284-7303

Counsel of Record
for Petitioners

Counsels of Record
for Respondents

PETITION FOR A WRIT OF CERTIORARI FILED: AUG. 7, 2020
CERTIORARI GRANTED: OCT. 19, 2020

TABLE OF CONTENTS

Page
Court of appeals docket entries (19-16102) .......................... 1
Court of appeals docket entries (19-16299) ........................... 19
Court of appeals docket entries (19-16300) ......................... 33
Court of appeals docket entries (19-16336) ......................... 37
District court docket entries (19-cv-872) ............................ 41
District court docket entries (19-cv-892) ............................ 53
Second declaration of Millard F. LeMaster........................ 63
Excerpt of Kenneth P. Rapuano action memo to the
Acting Secretary of Defense (May 6, 2019) ................... 66
Declaration of Millard F. LeMaster ................................... 69
Excerpt of second declaration of Kenneth P.
Rapuano ........................................................................... 72
Memorandum from Patrick M. Shanahan to Acting
Secretary of Homeland Security (May 9, 2019) ............. 74
Memorandum from Patrick M. Shanahan to Under
Secretary of Defense (May 9, 2019) ............................... 76
Memorandum from Christina Bobb to Capt. Hallock
N. Mohler, Jr. (Feb. 25, 2019) ........................................ 80
Letter from Patrick M. Shanahan to Hon. Kirstjen
Nielsen, Secretary of Homeland Security (Mar. 25,
2019) ................................................................................. 96
Memorandum from Patrick M. Shanahan to Under
Secretary of Defense (Mar. 25, 2019) ............................. 98
Memorandum from Christina Bobb to Capt. Hallock
N. Mohler, Jr. (Mar. 29, 2019) ...................................... 102
Memorandum from Patrick M. Shanahan to Acting
Secretary of Homeland Security (Apr. 9, 2019) .......... 105
Declaration of Ralph Hudson ............................................ 108
Declaration of Bill Broyles ................................................ 113
Declaration of Patricia Gerrodette ................................... 117
Declaration of Margaret Case .......................................... 121

(I)

II
Table of Contents—Continued:

Page

Excerpt of “An American Budget, Budget of the U.S.
Government” (FY 2019) ................................................ 127
Letter from Russell T. Vought to Hon. Richard
Shelby, Chairman (Jan. 6, 2019) ................................... 131
White House fact sheet, “President Donald J.
Trump’s Border Security Victory” (Feb. 15, 2019) ..... 136
Excerpt of “Remarks by President Trump on the
National Security and Humanitarian Crisis on
our Southern Border” (Feb. 15, 2019).......................... 142

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Docket No. 19-16102
SIERRA CLUB, SOUTHERN BORDER COMMUNITIES
COALITION, PLAINTIFFS-APPELLEES
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES; MARK T. ESPER,
IN HIS OFFICIAL CAPACITY AS ACTING SECRETARY OF
THE DEFENSE; CHAD F. WOLF, IN HIS OFFICIAL CAPACITY AS ACTING SECRETARY OF HOMELAND SECURITY;
STEVEN TERNER MNUCHIN, IN HIS OFFICIAL CAPACITY
AS SECRETARY OF THE DEPARTMENT OF THE TREASURY, DEFENDANTS-APPELLANTS
DOCKET ENTRIES
DATE

5/29/19

6/3/19

DOCKET
NUMBER PROCEEDINGS

1

7

DOCKETED CAUSE AND ENTERED APPEARANCES OF
COUNSEL. SEND MQ: Yes.
The schedule is set as follows:
To be set. Preliminary Injunction, C.R. 3-3. [11312098] (JBS)
[Entered: 05/29/2019 01:33 PM]
* * * * *
Filed (ECF) Appellants Kevin K.
McAleenan,
Steven
Terner
Mnuchin, Patrick Shanahan and
Donald J. Trump EMERGENCY
(1)

2
DATE

DOCKET
NUMBER PROCEEDINGS

Motion to stay lower court action.
Date of service:
06/03/2019.
[11318213] [19-16102] (Murphy,
Anne) [Entered:
06/03/2019
10:03 PM]
6/11/19

37

* * * * *
Submitted (ECF) Amicus brief
for review (by government or
with consent per FRAP 29(a)).
Submitted by STATES OF CALIFORNIA, COLORADO, CONNECTICUT, DELAWARE, HAWAII, ILLINOIS, MAINE,
MARYLAND,
MASSACHUSETTS, MICHIGAN, MINNESOTA, NEVADA, NEW JERSEY, NEW MEXICO, NEW
YORK, OREGON, RHODE ISLAND, VERMONT, VIRGINIA,
AND WISCONSIN.
Date of
service: 06/11/2019. [11327400]
[19-16102]—[COURT UPDATE:
Attached
consolidated
pdf.
06/11/2019 by LA] (Zahradka,
James) [Entered:
06/11/2019
03:56 PM]
* * * * *

3
DATE

6/11/19

DOCKET
NUMBER PROCEEDINGS

39

6/14/19

61

6/18/19

62

Filed (ECF) Appellees Sierra
Club and Southern Border Communities Coalition response opposing motion ([7] Motion (ECF
Filing), [7] Motion (ECF Filing)).
Date of service:
06/11/2019.
[11327474] [19-16102] (Ladin,
Dror) [Entered:
06/11/2019
04:25 PM]
* * * * *
Filed (ECF) Appellants Kevin K.
McAleenan,
Steven
Terner
Mnuchin, Patrick Shanahan and
Donald J. Trump reply to response ().
Date of service:
06/14/2019. [11331976] [19-16102]
(Dixon, Courtney) [Entered:
06/14/2019 01:15 PM]
Filed order (RICHARD R.
CLIFTON, N. RANDY SMITH
and MICHELLE T. FRIEDLAND) At oral argument on
Thursday, June 20, the parties
shall be prepared to discuss
whether, if the reprogramming of
funds did not comport with section 8005, Plaintiffs’ cause of action is properly understood as an
equitable cause of action to enjoin
a constitutional violation (e.g., a

4
DATE

6/20/19

6/24/19

DOCKET
NUMBER PROCEEDINGS

63

67

violation of the Appropriations
Clause of Article I or an executive
action that exceeds powers granted
in Article II), a statutory cause of
action, or both. Additionally, the
parties shall be prepared to discuss whether there is a zone of interests requirement for the proper
cause or causes of action. Finally, the parties should be prepared to discuss whether this is a
political question of a sort that is
not justiciable. [11336378] (OC)
[Entered: 06/18/2019 04:38 PM]
ARGUED AND SUBMITTED
TO RICHARD R. CLIFTON, N.
RANDY
SMITH
and
MICHELLE T. FRIEDLAND.
[11339874]
(SVG)
[Entered:
06/20/2019 05:08 PM]
* * * * *
Filed order (RICHARD R.
CLIFTON, N. RANDY SMITH
and MICHELLE T. FRIEDLAND):
Having heard argument on the Government’s stay
motion, the court is endeavoring
to issue a decision before the July
4th holiday. Many issues arose
at oral argument, however, that

5
DATE

DOCKET
NUMBER PROCEEDINGS

were not briefed by the parties.
It would assist the court to have
briefing from the parties on: (1)
whether Plaintiffs have an equitable or constitutional cause of action for violation of the Appropriations Clause, and how Dalton v.
Specter, 511 U.S. 462 (1994),
bears on this question; and (2)
whether Plaintiffs’ cause of action
should be treated as an APA
claim, and, if so, whether it succeeds. The parties should also
address whether the answer to
question 2 affects the answer to
question 1. The Government’s
brief is due Thursday, June 27,
2019, at 9:00 am Pacific. The
Plaintiffs’ brief is due Friday,
June 28, 2019, at 5:00 pm Pacific.
The briefs shall not exceed 8000
words.
[11342672] (AF) [Entered: 06/24/2019 03:32 PM]
6/27/19

69

* * * * *
Submitted (ECF) Supplemental
Brief for review. Submitted by
Appellants Kevin K. McAleenan,
Steven Terner Mnuchin, Patrick
Shanahan and Donald J. Trump.
Date of service:
06/27/2019.

6
DATE

DOCKET
NUMBER PROCEEDINGS

[11346418]—[COURT ENTER
ED FILING to replace incorrect
entry [68].] (LA) [Entered:
06/27/2019 09:07 AM]
6/28/19

6/29/19

7/3/19

71

73

75

* * * * *
Submitted (ECF) Supplemental
Brief for review. Submitted by
Appellees Sierra Club and Southern Border Communities Coalition. Date of service: 06/28/
2019. [11349270] [19-16102] (La
din, Dror) [Entered:
06/28/
2019 04:41 PM]
* * * * *
Filed (ECF) Appellants Kevin K.
McAleenan,
Steven
Terner
Mnuchin, Patrick Shanahan and
Donald J. Trump Correspondence: Informing the court that
the district court entered a permanent injunction and final judgment under Rule 54(b), which the
government has appealed.. Date
of service: 06/29/2019 [11349505]
[19-16102] (Byron, H. Thomas)
[Entered: 06/29/2019 10:07 AM]
* * * * *
Filed order (RICHARD R.
CLIFTON, N. RANDY SMITH

7
DATE

DOCKET
NUMBER PROCEEDINGS

7/3/19

76

7/8/19

77

and MICHELLE T. FRIEDLAND): The motion to consolidate appeal Nos. 19-16102 and
19-16300 is granted. We defer
resolution of the request to consolidate appeal No. 19-16299,
which will be addressed by separate order. Briefing is stayed in
these appeals pending further
order.
[11353399] [19-16102,
19-16300, 19-16299] (AF) [Entered: 07/03/2019 10:20 AM]
Filed Order for PUBLICATION
(RICHARD R. CLIFTON, N.
RANDY
SMITH
and
MICHELLE T. FRIEDLAND)
Order by Judges Clifton and
Friedland Dissent by Judge N.R.
Smith.
[SEE ORDER FOR
FULL TEXT] Motion for stay
DENIED. [11354254] [19-16102,
19-16300]—[Edited:
Updated
docket text and attached corrected PDF of order (font correction). 07/03/2019 by SLM] (MM)
[Entered: 07/03/2019 03:45 PM]
Filed (ECF) Appellants Mark T.
Esper, Kevin K. McAleenan, Steven Terner Mnuchin and Donald
J. Trump in 19-16300, 19-16102
Unopposed Motion to consolidate

8
DATE

7/15/19

DOCKET
NUMBER PROCEEDINGS

78

cases 19-16102, 19-16300, 19-16299,
19-16336, Motion for miscellaneous relief [Establish briefing
schedule].
Date of service:
07/08/2019. [11357245] [19-16300,
19-16102] (Byron, H. Thomas)
[Entered: 07/08/2019 06:23 PM]
Filed order (RICHARD R.
CLIFTON, N. RANDY SMITH
and MICHELLE T. FRIEDLAND): We grant Defendants’
Unopposed Motion to Consolidate Appeals and Establish BriefAppeal Nos.
ing Schedule.
19-16102, 19-16300, 19-16299, and
19-16336 are consolidated. In
accordance with Defendants’ proposed briefing schedule:
Defendants’ opening brief is due
July 31, 2019. Sierra Club Case
plaintiffs’ response brief, and
States Case plaintiffs’ response
brief and opening brief on crossappeal, are due August 30, 2019.
Defendants’ reply brief and response brief to States Case plaintiffs’ cross-appeal is due September 20, 2019. States Case plaintiffs’ reply brief on cross-appeal is
due October 11, 2019. We request that the parties promptly

9
DATE

DOCKET
NUMBER PROCEEDINGS

inform this Court of any developments affecting this appeal. In
particular, if there are developments that may moot any or all of
the issues, this Court should be
notified immediately. [11364018]
[19-16102, 19-16299, 19-16336,
19-16300]
(AF)
[Entered:
07/15/2019 04:23 PM]
7/26/19

7/31/19

83

85

* * * * *
Received copy of Supreme Court
of the United States Opinion of
Breyer, J. filed on 07/26/2019.
(No. 19A60) [11378645] [19-16102,
19-16299, 19-16336, 19-16300]
(RL) [Entered: 07/26/2019 04:41
PM]
* * * * *
Submitted (ECF) First Brief on
Cross-Appeal for review. Submitted by Appellants Mark T. Esper, Kevin K. McAleenan, Steven
Terner Mnuchin and Donald J.
Trump in 19-16102, Appellants
David Bernhardt, DOD, Mark T.
Esper, Kevin K. McAleenan,
Ryan D. McCarthy, Steven
Terner Mnuchin, Richard V.
Spencer, Donald J. Trump,

10
DATE

7/31/19

DOCKET
NUMBER PROCEEDINGS

86

United States Department of the
Treasury, USA, USDHS, USDOI
and Heather Wilson in 19-16299,
19-16300. Date of service:
07/31/2019. [11383517] [19-16102,
19-16299, 19-16300, 19-16336]—
[COURT UPDATE: Attached
corrected PDF of brief, updated
docket text to reflect correct brief
type. 08/01/2019 by LA] (Murphy,
Anne)
[Entered:
07/31/2019 08:09 PM]
Submitted (ECF) excerpts of record. Submitted by Appellants
Mark T. Esper, Kevin K.
McAleenan,
Steven
Terner
Mnuchin and Donald J. Trump in
19-16102, Appellants David Bernhardt, DOD, Mark T. Esper,
Kevin K. McAleenan, Ryan D.
McCarthy, Steven Terner Mnuchin, Richard V. Spencer, Donald
J. Trump, United States Department of the Treasury, USA,
USDHS, USDOI and Heather
Wilson in 19-16299, 19-16300.
Date of service:
07/31/2019.
[11383519] [19-16102, 19-16299,
19-16300,
19-16336]—[COURT
UPDATE: Attached corrected
excerpts.
08/01/2019 by LA]

11
DATE

DOCKET
NUMBER PROCEEDINGS

(Murphy,
Anne)
07/31/2019 08:19 PM]
8/15/19

108

8/15/19

109

8/15/19

110

[Entered:

* * * * *
Submitted (ECF) Answering
Brief for review. Submitted by
Appellees Sierra Club and Southern Border Communities Coalition in 19-16102, 19-16300. Date
of service: 08/15/2019. [11399236]
[19-16102, 19-16299, 19-16300,
19-16336] (Ladin, Dror) [Entered: 08/15/2019 07:08 PM]
Submitted (ECF) supplemental
excerpts of record. Submitted
by Appellees Sierra Club and
Southern Border Communities
Coalition in 19-16102, 19-16300.
Date of service:
08/15/2019.
[11399237] [19-16102, 250 pg,
15.02 MB 19-16299, 19-16300,
19-16336] (Ladin, Dror) [Entered: 08/15/2019 07:11 PM]
Submitted (ECF) Second Brief
on Cross-Appeal for review.
Submitted by Appellees State of
California and State of New Mexico in 19-16299, Appellants State
of California and State of New
Mexico in 19-16336. Date of service:
08/15/2019.
[11399243]

12
DATE

8/15/19

8/30/19

DOCKET
NUMBER PROCEEDINGS

111

145

[19-16299, 19-16102, 19-16300,
19-16336]—[COURT UPDATE:
Updated docket text to reflect
correct brief type and all party filers. 08/16/2019 by LA] (Zahradka,
James)
[Entered:
08/15/2019 08:48 PM]
Submitted (ECF) supplemental
excerpts of record. Submitted
by Appellees State of California
and State of New Mexico in
19-16299.
Date of service:
08/15/2019. [11399244] [19-16299,
19-16102, 19-16300, 19-16336]
(Zahradka, James) [Entered:
08/15/2019 08:51 PM]
* * * * *
Submitted (ECF) Third Brief on
Cross-Appeal for review. Submitted by Appellants Doctor Mark
T. Esper, Kevin K. McAleenan,
Steven Terner Mnuchin and Donald J. Trump in 19-16102, Appellants DOD, Doctor Mark T. Esper, Kevin K. McAleenan, Ryan
D. McCarthy, Steven Terner
Mnuchin, Richard V. Spencer,
Donald J. Trump, United States
Department of the Treasury,

13
DATE

8/30/19

DOCKET
NUMBER PROCEEDINGS

146

USA, USDHS, USDOI and Heather Wilson in 19-16299, 19-16300,
Appellees DOD, Doctor Mark T.
Esper, Kevin K. McAleenan,
Ryan D. McCarthy, Steven
Terner Mnuchin, Richard V.
Spencer, Donald J. Trump,
United States Department of the
Treasury, USA, USDHS, USDOI
and Heather Wilson in 19-16336.
Date of service:
08/30/2019.
[11417659] [19-16102, 19-16299,
19-16300, 19-16336] (Murphy,
Anne) [Entered:
08/30/2019
11:39 PM]
Submitted (ECF) further excerpts of record. Submitted by
Appellants Doctor Mark T. Esper, Kevin K. McAleenan, Steven
Terner Mnuchin and Donald J.
Trump in 19-16102, Appellants
David Bernhardt, DOD, Doctor
Mark T. Esper, Kevin K.
McAleenan, Ryan D. McCarthy,
Steven Terner Mnuchin, Richard
V. Spencer, Donald J. Trump,
United States Department of the
Treasury, USA, USDHS, USDOI
and Heather Wilson in 19-16299,
19-16300, Appellees David Bern-

14
DATE

DOCKET
NUMBER PROCEEDINGS

hardt, DOD, Doctor Mark T. Esper, Kevin K. McAleenan, Ryan
D. McCarthy, Steven Terner
Mnuchin, Richard V. Spencer,
Donald J. Trump, United States
Department of the Treasury,
USA, USDHS, USDOI and
Heather Wilson in 19-16336.
Date of service:
08/30/2019.
[11417660] [19-16102, 19-16299,
19-16300, 19-16336] (Murphy,
Anne) [Entered:
08/30/2019
11:43 PM]
9/2/19

9/13/19

148

151

* * * * *
Filed (ECF) Appellants Doctor
Mark T. Esper, Kevin K.
McAleenan,
Steven
Terner
Mnuchin and Donald J. Trump in
19-16102 Motion to file substitute
or corrected brief. Date of service: 09/02/2019.
[11417834]
[19-16102, 19-16299, 19-16300,
19-16336] (Murphy, Anne) [Entered: 09/02/2019 11:41 AM]
* * * * *
Submitted (ECF) Cross-Appeal
Reply Brief for review. Submitted by Appellees State of California and State of New Mexico in

15
DATE

9/13/19

9/17/19

DOCKET
NUMBER PROCEEDINGS

152

154

19-16299, Appellants State of California and State of New Mexico
in 19-16336. Date of service:
09/13/2019. [11431386] [19-16299,
19-16102, 19-16300, 19-16336]—
[COURT UPDATE:
Updated
docket text to correctly reflect
the type of brief. 09/13/2019 by
SML] (Zahradka, James) [Entered: 09/13/2019 02:52 PM]
Submitted (ECF) further excerpts of record. Submitted by
Appellees State of California and
State of New Mexico in 19-16299,
Appellants State of California
and State of New Mexico in
19-16336.
Date of service:
09/13/2019. [11431390] [19-16299,
19-16102, 19-16300, 19-16336]—
[COURT UPDATE:
Updated
docket text to correctly reflect
the type of excerpts. 09/13/2019
by SML] (Zahradka, James) [Entered: 09/13/2019 02:54 PM]
* * * * *
Filed clerk order (Deputy Clerk:
AF):
Defendants-Appellants’
Motion for leave to file a corrected Reply and Response Brief
is GRANTED.
[11434689]

16
DATE

9/17/19

DOCKET
NUMBER PROCEEDINGS

155

[19-16102, 19-16299, 19-16336,
19-16300]
(AF)
[Entered:
09/17/2019 03:09 PM]
Submitted (ECF) Third Brief on
Cross-Appeal for review. Submitted by Appellants Doctor
Mark T. Esper, Kevin K.
McAleenan,
Steven
Terner
Mnuchin and Donald J. Trump in
19-16102, Appellants David Bernhardt, DOD, Doctor Mark T. Esper, Kevin K. McAleenan, Ryan
D. McCarthy, Steven Terner
Mnuchin, Richard V. Spencer,
Donald J. Trump, United States
Department of the Treasury,
USA, USDHS, USDOI and
Heather Wilson in 19-16299,
19-16300, Appellees David Bernhardt, DOD, Doctor Mark T. Esper, Kevin K. McAleenan, Ryan
D. McCarthy, Steven Terner
Mnuchin, Richard V. Spencer,
Donald J. Trump, United States
Department of the Treasury,
USA, USDHS, USDOI and
Heather Wilson in 19-16336.
Date of service:
09/17/2019.
[11434746] [19-16102, 19-16299,
19-16300, 19-16336] (Murphy,
Anne) [Entered:
09/17/2019

17
DATE

DOCKET
NUMBER PROCEEDINGS

03:35 PM]
11/12/19

6/26/20

7/31/20

177

187

190

* * * * *
ARGUED AND SUBMITTED
TO SIDNEY R. THOMAS, KIM
MCLANE WARDLAW and
DANIEL PAUL COLLINS.
[11496457] [19-16102, 19-16299,
19-16336, 19-16300] (BJK) [Entered: 11/12/2019 03:28 PM]
* * * * *
FILED OPINION (SIDNEY R.
THOMAS,
KIM
MCLANE
WARDLAW
and
DANIEL
PAUL COLLINS) AFFIRMED.
Judge: SRT Authoring, Judge:
DPC Dissenting. FILED AND
ENTERED
JUDGMENT.
[11734529] [19-16102, 19-16300]
(AKM) [Entered: 06/26/2020
08:52 AM]
* * * * *
Received letter from the Supreme Court dated 07/31/2020:
The motion to lift stay is denied.
JUSTICE BREYER, with whom
JUSTICE GINSBURG, JUSTICE SOTOMAYOR, and JUSTICE KAGAN join, dissenting
from denial of motion to lift stay..

18
DATE

DOCKET
NUMBER PROCEEDINGS

[11773507] [19-16102, 19-16300]
(HH) [Entered:
07/31/2020
02:41 PM]
* * * * *

19
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Docket No. 19-16299
STATE OF CALIFORNIA; STATE OF COLORADO; STATE
OF CONNECTICUT; STATE OF DELAWARE; STATE OF
HAWAII; STATE OF MAINE; STATE OF MINNESOTA;
STATE OF NEW JERSEY; STATE OF NEW MEXICO; STATE
OF NEVADA; STATE OF NEW YORK; STATE OF OREGON;
COMMONWEALTH OF VIRGINIA; STATE OF ILLINOIS;
STATE OF MARYLAND; DANA NESSEL, ATTORNEY
GENERAL, ON BEHALF OF THE PEOPLE OF MICHIGAN;
STATE OF WISCONSIN; STATE OF MASSACHUSETTS;
STATE OF VERMONT; STATE OF RHODE ISLAND,
PLAINTIFFS-APPELLEES
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES OF AMERICA;
UNITED STATES OF AMERICA; UNITED STATES DEPARTMENT OF DEFENSE; MARK T. ESPER, IN HIS OFFICIAL
CAPACITY AS ACTING SECRETARY OF DEFENSE;
RYAN D. MCCARTHY, SENIOR OFFICIAL PERFORMING
THE DUTIES OF THE SECRETARY OF THE ARMY;
RICHARD V. SPENCER, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE NAVY; HEATHER WILSON, IN HER
OFFICIAL CAPACITY AS SECRETARY OF THE AIR FORCE;
UNITED STATES DEPARTMENT OF THE TREASURY;
STEVEN TERNER MNUCHIN, IN HIS OFFICIAL CAPACITY
AS SECRETARY OF THE DEPARTMENT OF THE TREASURY; U.S. DEPARTMENT OF THE INTERIOR; DAVID
BERNHARDT, IN HIS OFFICIAL CAPACITY AS SECRETARY
OF THE INTERIOR; U.S. DEPARTMENT OF HOMELAND
SECURITY; CHAD F. WOLF, IN HIS OFFICIAL CAPACITY
AS ACTING SECRETARY OF HOMELAND SECURITY,
DEFENDANTS-APPELLANTS

20
DOCKET ENTRIES
DATE

7/1/19

DOCKET
NUMBER PROCEEDINGS

1

DOCKETED CAUSE AND ENTERED APPEARANCES OF
COUNSEL. SEND MQ: Yes.
The schedule is set as follows:
Mediation Questionnaire due on
07/08/2019. Transcript ordered
by 07/29/2019. Transcript due
08/28/2019.
Appellants David
Bernhardt, Mark T. Esper, Kevin
K. McAleenan, Ryan D. McCarthy, Steven Terner Mnuchin,
Richard V. Spencer, Donald J.
Trump, U.S. Department of Homeland Security, U.S. Department
of the Interior, U.S. Department
of the Treasury, United States
Department of Defense, United
States of America and Heather
Wilson
opening
brief
due
10/07/2019. Appellees Commonwealth of Virginia, Dana Nessel,
State of California, State of Colorado, State of Connecticut, State
of Delaware, State of Hawaii,
State of Illinois, State of Maine,
State of Maryland, State of Massachusetts, State of Minnesota,
State of Nevada, State of New
Jersey, State of New Mexico,

21
DATE

DOCKET
NUMBER PROCEEDINGS

State of New York, State of Oregon, State of Rhode Island, State
of Vermont and State of Wisconsin
answering
brief
due
11/06/2019. Appellant’s optional
reply brief is due 21 days after
service of the answering brief.
[11349970]
(JBS)
[Entered:
07/01/2019 09:46 AM]
7/2/19

4

7/3/19

5

* * * * *
Filed (ECF) Appellants David
Bernhardt, DOD, Mark T. Esper,
Kevin K. McAleenan, Ryan D.
McCarthy,
Steven
Terner
Mnuchin, Richard V. Spencer,
Donald J. Trump, U.S. Department of the Treasury, USA,
USDHS, USDOI and Heather
Wilson EMERGENCY Motion to
stay lower court action, Motion
to consolidate cases 19-16102,
19-16299, 19-16300. Date of service:
07/02/2019.
[11351761]
[19-16299] (Byron, H. Thomas)
[Entered: 07/02/2019 09:52 AM]
Filed order (RICHARD R.
CLIFTON, N. RANDY SMITH
and MICHELLE T. FRIEDLAND): The motion to consolidate appeal Nos. 19-16102 and

22
DATE

DOCKET
NUMBER PROCEEDINGS

19-16300 is granted. We defer
resolution of the request to consolidate appeal No. 19-16299,
which will be addressed by separate order. Briefing is stayed in
these appeals pending further
order.
[11353399] [19-16102,
19-16300, 19-16299] (AF) [Entered: 07/03/2019 10:20 AM]
7/8/19

7

* * * * *
Filed (ECF) Appellants David
Bernhardt, DOD, Mark T. Esper,
Kevin K. McAleenan, Ryan D.
McCarthy,
Steven
Terner
Mnuchin, Richard V. Spencer,
Donald J. Trump, U.S. Department of the Treasury, USA,
USDHS, USDOI and Heather
Wilson in 19-16299, Appellees David Bernhardt, DOD, Mark T. Esper, Kevin K. McAleenan, Ryan
D. McCarthy, Steven Terner
Mnuchin, Richard V. Spencer,
Donald J. Trump, U.S. Department of the Treasury, USA,
USDHS, USDOI and Heather
Wilson in 19-16336 Unopposed
Motion to consolidate cases
19-16102, 19-16300, 19-16299,

23
DATE

7/15/19

DOCKET
NUMBER PROCEEDINGS

8

19-16336, Motion for miscellaneous relief [Establish briefing
schedule].
Date of service:
07/08/2019. [11357246] [19-16299,
19-16336] (Byron, H. Thomas)
[Entered: 07/08/2019 06:25 PM]
Filed order (RICHARD R.
CLIFTON, N. RANDY SMITH
and MICHELLE T. FRIEDLAND): We grant Defendants’
Unopposed Motion to Consolidate Appeals and Establish Briefing Schedule.
Appeal Nos.
19-16102, 19-16300, 19-16299, and
19-16336 are consolidated. In
accordance with Defendants’ proposed briefing schedule: Defendants’ opening brief is due July
31, 2019. Sierra Club Case plaintiffs’ response brief, and States
Case plaintiffs’ response brief
and opening brief on cross-appeal,
are due August 30, 2019. Defendants’ reply brief and response brief to States Case plaintiffs’ cross-appeal is due September 20, 2019. States Case plaintiffs’ reply brief on cross-appeal is
due October 11, 2019. We request that the parties promptly

24
DATE

DOCKET
NUMBER PROCEEDINGS

inform this Court of any developments affecting this appeal. In
particular, if there are developments that may moot any or all of
the issues, this Court should be
notified immediately. [11364018]
[19-16102, 19-16299, 19-16336,
19-16300]
(AF)
[Entered:
07/15/2019 04:23 PM]
7/26/19

7/31/19

13

15

* * * * *
Received copy of Supreme Court
of the United States Opinion of
Breyer, J. filed on 07/26/2019.
(No. 19A60) [11378645] [19-16102,
19-16299, 19-16336, 19-16300]
(RL) [Entered: 07/26/2019 04:41
PM]
* * * * *
Submitted (ECF) First Brief on
Cross-Appeal for review. Submitted by Appellants Mark T. Esper, Kevin K. McAleenan, Steven
Terner Mnuchin and Donald J.
Trump in 19-16102, Appellants
David Bernhardt, DOD, Mark T.
Esper, Kevin K. McAleenan, Ryan
D. McCarthy, Steven Terner
Mnuchin, Richard V. Spencer,
Donald J. Trump, United States

25
DATE

7/31/19

DOCKET
NUMBER PROCEEDINGS

16

Department of the Treasury, USA,
USDHS, USDOI and Heather
Wilson in 19-16299, 19-16300.
Date of service:
07/31/2019.
[11383517] [19-16102, 19-16299,
19-16300,
19-16336]—[COURT
UPDATE: Attached corrected
PDF of brief, updated docket text
to reflect correct brief type.
08/01/2019 by LA] (Murphy,
Anne) [Entered:
07/31/2019
08:09 PM]
Submitted (ECF) excerpts of record. Submitted by Appellants
Mark T. Esper, Kevin K.
McAleenan,
Steven
Terner
Mnuchin and Donald J. Trump in
19-16102, Appellants David Bernhardt, DOD, Mark T. Esper,
Kevin K. McAleenan, Ryan D.
McCarthy,
Steven
Terner
Mnuchin, Richard V. Spencer,
Donald J. Trump, United States
Department of the Treasury,
USA, USDHS, USDOI and
Heather Wilson in 19-16299, 1916300.
Date of service:
07/31/2019. [11383519] [19-16102,
19-16299, 19-16300, 19-16336]—
[COURT UPDATE: Attached
corrected excerpts. 08/01/2019

26
DATE

DOCKET
NUMBER PROCEEDINGS

by LA] (Murphy, Anne) [Entered: 07/31/2019 08:19 PM]
8/15/19

38

8/15/19

39

8/15/19

40

* * * * *
Submitted (ECF) Answering
Brief for review. Submitted by
Appellees Sierra Club and Southern Border Communities Coalition in 19-16102, 19-16300. Date
of service: 08/15/2019. [11399236]
[19-16102, 19-16299, 19-16300,
19-16336] (Ladin, Dror) [Entered: 08/15/2019 07:08 PM]
Submitted (ECF) supplemental
excerpts of record. Submitted
by Appellees Sierra Club and
Southern Border Communities
Coalition in 19-16102, 19-16300.
Date of service:
08/15/2019.
[11399237] [19-16102, 19-16299,
19-16300, 19-16336] (Ladin, Dror)
[Entered: 08/15/2019 07:11 PM]
Submitted (ECF) Second Brief
on Cross-Appeal for review.
Submitted by Appellees State of
California and State of New Mexico in 19-16299, Appellants State
of California and State of New
Mexico in 19-16336. Date of service:
08/15/2019.
[11399243]
[19-16299, 19-16102, 19-16300,

27
DATE

8/15/19

8/30/19

DOCKET
NUMBER PROCEEDINGS

41

79

19-16336]—[COURT UPDATE:
Updated docket text to reflect
correct brief type and all party filers. 08/16/2019 by LA] (Zahradka,
James)
[Entered:
08/15/2019 08:48 PM]
Submitted (ECF) supplemental
excerpts of record. Submitted
by Appellees State of California
and State of New Mexico in
19-16299.
Date of service:
08/15/2019. [11399244] [19-16299,
19-16102, 19-16300, 19-16336]
(Zahradka, James) [Entered:
08/15/2019 08:51 PM]
* * * * *
Submitted (ECF) Third Brief on
Cross-Appeal for review. Submitted by Appellants Doctor Mark
T. Esper, Kevin K. McAleenan,
Steven Terner Mnuchin and Donald J. Trump in 19-16102, Appellants DOD, Doctor Mark T. Esper, Kevin K. McAleenan, Ryan
D. McCarthy, Steven Terner
Mnuchin, Richard V. Spencer,
Donald J. Trump, United States
Department of the Treasury, USA,
USDHS, USDOI and Heather

28
DATE

8/30/19

DOCKET
NUMBER PROCEEDINGS

80

Wilson in 19-16299, 19-16300, Appellees DOD, Doctor Mark T. Esper, Kevin K. McAleenan, Ryan
D. McCarthy, Steven Terner
Mnuchin, Richard V. Spencer,
Donald J. Trump, United States
Department of the Treasury,
USA, USDHS, USDOI and
Heather Wilson in 19-16336.
Date of service:
08/30/2019.
[11417659] [19-16102, 19-16299,
19-16300, 19-16336] (Murphy,
Anne) [Entered:
08/30/2019
11:39 PM]
Submitted (ECF) further excerpts of record. Submitted by
Appellants Doctor Mark T. Esper, Kevin K. McAleenan, Steven
Terner Mnuchin and Donald J.
Trump in 19-16102, Appellants
David Bernhardt, DOD, Doctor
Mark T. Esper, Kevin K.
McAleenan, Ryan D. McCarthy,
Steven Terner Mnuchin, Richard
V. Spencer, Donald J. Trump,
United States Department of the
Treasury, USA, USDHS, USDOI
and Heather Wilson in 19-16299,
19-16300, Appellees David Bernhardt, DOD, Doctor Mark T. Esper, Kevin K. McAleenan, Ryan

29
DATE

DOCKET
NUMBER PROCEEDINGS

D. McCarthy, Steven Terner
Mnuchin, Richard V. Spencer,
Donald J. Trump, United States
Department of the Treasury,
USA, USDHS, USDOI and
Heather Wilson in 19-16336.
Date of service:
08/30/2019.
[11417660] [19-16102, 19-16299,
19-16300, 19-16336] (Murphy,
Anne) [Entered:
08/30/2019
11:43 PM]
9/2/19

9/13/19

82

85

* * * * *
Filed (ECF) Appellants Doctor
Mark T. Esper, Kevin K.
McAleenan,
Steven
Terner
Mnuchin and Donald J. Trump in
19-16102 Motion to file substitute
or corrected brief. Date of service: 09/02/2019.
[11417834]
[19-16102, 19-16299, 19-16300,
19-16336] (Murphy, Anne) [Entered: 09/02/2019 11:41 AM]
* * * * *
Submitted (ECF) Cross-Appeal
Reply Brief for review. Submitted by Appellees State of California and State of New Mexico in
19-16299, Appellants State of California and State of New Mexico

30
DATE

9/13/19

9/17/19

DOCKET
NUMBER PROCEEDINGS

86

88

in 19-16336. Date of service:
09/13/2019. [11431386] [19-16299,
19-16102, 19-16300, 19-16336]—
[COURT UPDATE:
Updated
docket text to correctly reflect
the type of brief. 09/13/2019 by
SML] (Zahradka, James) [Entered: 09/13/2019 02:52 PM]
Submitted (ECF) further excerpts of record. Submitted by
Appellees State of California and
State of New Mexico in 19-16299,
Appellants State of California
and State of New Mexico in
19-16336.
Date of service:
09/13/2019. [11431390] [19-16299,
19-16102, 19-16300, 19-16336]—
[COURT UPDATE: Updated
docket text to correctly reflect
the type of excerpts. 09/13/2019
by SML] (Zahradka, James) [Entered: 09/13/2019 02:54 PM]
* * * * *
Filed clerk order (Deputy Clerk:
AF):
Defendants-Appellants’
Motion for leave to file a corrected Reply and Response Brief
is GRANTED.
[11434689]
[19-16102, 19-16299, 19-16336,

31
DATE

9/17/19

DOCKET
NUMBER PROCEEDINGS

89

19-16300]
(AF)
[Entered:
09/17/2019 03:09 PM]
Submitted (ECF) Third Brief on
Cross-Appeal for review. Submitted by Appellants Doctor
Mark T. Esper, Kevin K.
McAleenan,
Steven
Terner
Mnuchin and Donald J. Trump in
19-16102, Appellants David Bernhardt, DOD, Doctor Mark T. Esper, Kevin K. McAleenan, Ryan
D. McCarthy, Steven Terner
Mnuchin, Richard V. Spencer,
Donald J. Trump, United States
Department of the Treasury,
USA, USDHS, USDOI and
Heather Wilson in 19-16299,
19-16300, Appellees David Bernhardt, DOD, Doctor Mark T. Esper, Kevin K. McAleenan, Ryan
D. McCarthy, Steven Terner
Mnuchin, Richard V. Spencer,
Donald J. Trump, United States
Department of the Treasury,
USA, USDHS, USDOI and Heather Wilson in 19-16336. Date of
service: 09/17/2019. [11434746]
[19-16102, 19-16299, 19-16300,
19-16336] (Murphy, Anne) [Entered: 09/17/2019 03:35 PM]

32
DATE

11/12/19

6/26/20

DOCKET
NUMBER PROCEEDINGS

110

120

* * * * *
ARGUED AND SUBMITTED
TO SIDNEY R. THOMAS, KIM
MCLANE WARDLAW and
DANIEL PAUL COLLINS.
[11496457] [19-16102, 19-16299,
19-16336, 19-16300] (BJK) [Entered: 11/12/2019 03:28 PM]
* * * * *
FILED OPINION (SIDNEY R.
THOMAS,
KIM
MCLANE
WARDLAW
and
DANIEL
PAUL COLLINS) AFFIRMED.
Judge: SRT Authoring, Judge:
DPC Dissenting. FILED AND
ENTERED
JUDGMENT.
[11734538] [19-16299, 19-16336]
(AKM) [Entered:
06/26/2020
08:55 AM]
* * * * *

33
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Docket No. 19-16300
SIERRA CLUB; SOUTHERN BORDER COMMUNITIES
COALITION, PLAINTIFFS-APPELLEES
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES; MARK T. ESPER,
IN HIS OFFICIAL CAPACITY AS ACTING SECRETARY OF
DEFENSE; CHAD F. WOLF, IN HIS OFFICIAL CAPACITY
AS ACTING SECRETARY OF HOMELAND SECURITY;
STEVEN TERNER MNUCHIN, IN HIS OFFICIAL CAPACITY
AS SECRETARY OF THE TREASURY,
DEFENDANTS-APPELLANTS
DOCKET ENTRIES
DATE

7/1/19

DOCKET
NUMBER PROCEEDINGS

1

DOCKETED CAUSE AND ENTERED APPEARANCES OF
COUNSEL. SEND MQ: Yes.
The schedule is set as follows:
Mediation Questionnaire due on
07/08/2019. Transcript ordered
by 07/29/2019. Transcript due
08/28/2019. Appellants Mark T.
Esper, Kevin K. McAleenan, Steven Terner Mnuchin and Donald
J. Trump opening brief due
10/07/2019.
Appellees Sierra

34
DATE

DOCKET
NUMBER PROCEEDINGS

Club and Southern Border Communities Coalition answering
brief due 11/06/2019.
Appellant’s optional reply brief is due
21 days after service of the answering brief. [11349978] (JBS)
[Entered: 07/01/2019 09:49 AM]
7/2/19

4

7/3/19

5

* * * * *
Filed (ECF) Appellants Mark T.
Esper, Kevin K. McAleenan, Steven Terner Mnuchin and Donald
J. Trump EMERGENCY Motion to stay lower court action,
Mo-tion to consolidate cases 1916102, 19-16299, 19-16300. Date
of
service:
07/02/2019.
[11351747] [19-16300] (Byron, H.
Thomas) [Entered: 07/02/2019
09:49 AM]
Filed order (RICHARD R.
CLIFTON, N. RANDY SMITH
and MICHELLE T. FRIEDLAND): The motion to consolidate appeal Nos. 19-16102 and
19-16300 is granted. We defer
resolution of the request to consolidate appeal No. 19-16299,
which will be addressed by separate order. Briefing is stayed in
these appeals pending further

35
DATE

DOCKET
NUMBER PROCEEDINGS

order.
[11353399] [19-16102,
19-16300, 19-16299] (AF) [Entered: 07/03/2019 10:20 AM]
7/8/19

7

7/15/19

8

* * * * *
Filed (ECF) Appellants Mark T.
Esper, Kevin K. McAleenan, Steven Terner Mnuchin and Donald
J. Trump in 19-16300, 19-16102
Unopposed Motion to consolidate
cases 19-16102, 19-16300, 19-16299,
19-16336, Motion for miscellaneous relief [Establish briefing
schedule].
Date of service:
07/08/2019. [11357245] [19-16300,
19-16102] (Byron, H. Thomas)
[Entered: 07/08/2019 06:23 PM]
Filed order (RICHARD R.
CLIFTON, N. RANDY SMITH
and MICHELLE T. FRIEDLAND): We grant Defendants’
Unopposed Motion to Consolidate Appeals and Establish Briefing Schedule.
Appeal Nos.
19-16102, 19-16300, 19-16299, and
19-16336 are consolidated. In
accordance with Defendants’ proposed briefing schedule:
Defendants’ opening brief is due
July 31, 2019. Sierra Club Case
plaintiffs’ response brief, and

36
DATE

DOCKET
NUMBER PROCEEDINGS

States Case plaintiffs’ response
brief and opening brief on crossappeal, are due August 30, 2019.
Defendants’ reply brief and response brief to States Case plaintiffs’ cross-appeal is due September 20, 2019. States Case plaintiffs’ reply brief on cross-appeal is
due October 11, 2019. We request that the parties promptly
inform this Court of any developments affecting this appeal. In
particular, if there are developments that may moot any or all of
the issues, this Court should be
notified immediately. [11364018]
[19-16102, 19-16299, 19-16336,
19-16300]
(AF)
[Entered:
07/15/2019 04:23 PM]
* * * * *

37
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Docket No. 19-16336
STATE OF CALIFORNIA; STATE OF NEW MEXICO,
PLAINTIFFS-APPELLANTS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES OF AMERICA;
UNITED STATES OF AMERICA; UNITED STATES DEPARTMENT OF DEFENSE; MARK T. ESPER, IN HIS OFFICIAL
CAPACITY AS ACTING SECRETARY OF DEFENSE; RYAN
D. MCCARTHY, SENIOR OFFICIAL PERFORMING THE DUTIES OF THE SECRETARY OF THE ARMY; RICHARD V.
SPENCER, IN HIS OFFICIAL CAPACITY AS SECRETARY OF
THE NAVY; HEATHER WILSON, IN HER OFFICIAL CAPACITY AS SECRETARY OF THE AIR FORCE; UNITED STATES
DEPARTMENT OF THE TREASURY; STEVEN TERNER
MNUCHIN, IN HIS OFFICIAL CAPACITY AS SECRETARY
OF THE DEPARTMENT OF THE TREASURY; U.S.
DEPARTMENT OF THE INTERIOR; DAVID BERNHARDT,
IN HIS OFFICIAL CAPACITY AS SECRETARY OF THE
INTERIOR; U.S. DEPARTMENT OF HOMELAND
SECURITY; CHAD F. WOLF, IN HIS OFFICIAL CAPACITY
AS ACTING SECRETARY OF HOMELAND SECURITY,
DEFENDANTS-APPELLANTS
DOCKET ENTRIES
DATE

7/8/19

DOCKET
NUMBER PROCEEDINGS

1

DOCKETED CAUSE AND ENTERED APPEARANCES OF
COUNSEL. SEND MQ: Yes.

38
DATE

7/8/19

DOCKET
NUMBER PROCEEDINGS

2

Setting cross-appeal briefing
schedule as follows: Mediation
Questionnaire due on 07/15/2019
for State of California and State
of New Mexico. Briefing is stayed
in these appeals pending further
order.
[11356849] [19-16336,
19-16299]
(JBS)
[Entered:
07/08/2019 03:01 PM] 07/08/2019
Filed (ECF) Appellants David
Bernhardt, DOD, Mark T. Esper,
Kevin K. McAleenan, Ryan D.
McCarthy,
Steven
Terner
Mnuchin, Richard V. Spencer,
Donald J. Trump, U.S. Department of the Treasury, USA,
USDHS, USDOI and Heather
Wilson in 19-16299, Appellees David Bernhardt, DOD, Mark T. Esper, Kevin K. McAleenan, Ryan
D. McCarthy, Steven Terner
Mnuchin, Richard V. Spencer,
Donald J. Trump, U.S. Department of the Treasury, USA,
USDHS, USDOI and Heather
Wilson in 19-16336 Unopposed
Motion to consolidate cases
19-16102, 19-16300, 19-16299,
19-16336, Motion for miscellaneous relief [Establish briefing
schedule].
Date of service:

39
DATE

7/15/19

DOCKET
NUMBER PROCEEDINGS

3

07/08/2019. [11357246] [19-16299,
19-16336] (Byron, H. Thomas)
[Entered: 07/08/2019 06:25 PM]
07/15/2019
Filed order (RICHARD R.
CLIFTON, N. RANDY SMITH
and MICHELLE T. FRIEDLAND): We grant Defendants’
Unopposed Motion to Consolidate Appeals and Establish Briefing Schedule.
Appeal Nos.
19-16102, 19-16300, 19-16299, and
19-16336 are consolidated. In
accordance with Defendants’ proposed briefing schedule:
Defendants’ opening brief is due
July 31, 2019. Sierra Club Case
plaintiffs’ response brief, and
States Case plaintiffs’ response
brief and opening brief on crossappeal, are due August 30, 2019.
Defendants’ reply brief and response brief to States Case plaintiffs’ cross-appeal is due September 20, 2019. States Case plaintiffs’ reply brief on cross-appeal is
due October 11, 2019. We request that the parties promptly
inform this Court of any developments affecting this appeal. In

40
DATE

DOCKET
NUMBER PROCEEDINGS

particular, if there are developments that may moot any or all
of the issues, this Court should
be
notified
immediately.
[11364018] [19-16102, 19-16299,
19-16336, 19-16300] (AF) [Entered: 07/15/2019 04:23 PM]
* * * * *

41
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
(OAKLAND)

Docket No. 4:19-cv-00872-HSG
STATE OF CALIFORNIA, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, ET AL., DEFENDANTS
DOCKET ENTRIES
DATE

2/18/19

DOCKET
NUMBER PROCEEDINGS

1

COMPLAINT FOR DECLARATORY AND INJUNCTIVE RELIEF; against All Defendants
(Filing fee $ 400, receipt number
0971-13100729.). Filed by State
of New York, State of Minnesota,
State of Colorado, State of California, Dana Nessel, State of Illinois, State of Maine, State of
Maryland, State of Connecticut,
State of New Mexico, State of Oregon, State of New Jersey, State
of Delaware, State of Nevada,
State of Hawaii, Commonwealth
of Virginia. (Attachments: # 1
Civil Cover Sheet) (Sherman,
Lee) (Filed on 2/18/2019) Modified on 2/19/2019 (aaaS, COURT

42
DATE

DOCKET
NUMBER PROCEEDINGS

STAFF). Modified on 2/19/2019
(aaaS, COURT STAFF). (Entered: 02/18/2019)
* * * * *
3/6/19

3/13/19

45

47

ORDER by Judge Haywood S.
Gilliam, Jr. Granting 38 Motion
to Relate Case Pursuant to N.D.
Cal. Civ. L.R. 3-12(b) Re Case No.
19-cv-0892-KAW. (ndrS, COURT
STAFF) (Filed on 3/6/2019) (Entered: 03/06/2019)

* * * * *
AMENDED COMPLAINT FOR
DECLARATORY
AND
INJUNCTIVE RELIEF against All
Defendants. Filed by State of
Minnesota, State of Colorado,
State of California, State of Illinois, State of Maryland, State of
Nevada, State of New York, Commonwealth of Virginia, Dana Nessel, State of Maine, State of Connecticut, State of New Mexico,
State of Oregon, State of New
Jersey, State of Delaware, State
of Hawaii, State of Wisconsin,
Commonwealth of Massachusetts, State of Vermont, State of
Rhode Island. (Zahradka, James)

43
DATE

DOCKET
NUMBER PROCEEDINGS

(Filed on 3/13/2019) (Entered:
03/13/2019)
4/8/19

59

* * * * *
MOTION for Preliminary Injunction filed by Commonwealth of
Massachusetts, Commonwealth
of Virginia, Dana Nessel, State of
California, State of Colorado,
State of Connecticut, State of
Delaware, State of Hawaii, State
of Illinois, State of Maine, State of
Maryland, State of Minnesota,
State of Nevada, State of New
Jersey, State of New Mexico,
State of New York, State of Oregon, State of Rhode Island, State
of Vermont, State of Wisconsin.
Motion Hearing set for 5/9/2019
02:00 PM in Oakland, Courtroom
2, 4th Floor before Judge Haywood S Gilliam Jr.. Responses
due by 4/18/2019. Replies due by
4/25/2019. (Attachments: # 1
Proposed Order, # 2 Appendix re
Environmental Harms, # 3 Appendix re TFF Harms, # 4 Request for Judicial Notice and Exhibits 1-50, # 5 Certificate/
Proof of Service) (Sherman, Lee)

44
DATE

DOCKET
NUMBER PROCEEDINGS

(Filed on 4/8/2019) (Entered:
04/08/2019)
4/25/19

5/2/19

89

112

* * * * *
OPPOSITION/RESPONSE (re
59 MOTION for Preliminary Injunction) filed by Department of
Defense, David Bernhardt, Mark
T. Esper, Steven T. Mnuchin,
Kirstjen M. Nielsen, Patrick M.
Shanahan, Richard V. Spencer,
Donald J. Trump, U.S. Department of Homeland Security, U.S.
Department of the Interior, U.S.
Department of the Treasury,
United States of America,
Heather Wilson. (Attachments:
# 1 Exhibit, # 2 Exhibit, # 3 Exhibit, # 4 Exhibit, # 5 Exhibit,
# 6 Exhibit, # 7 Exhibit, # 8 Exhibit, # 9 Exhibit, # 10 Exhibit,
# 11 Exhibit, # 12 Exhibit, # 13
Exhibit, # 14 Exhibit) (Warden,
Andrew) (Filed on 4/25/2019)
(Entered: 04/25/2019)
* * * * *
REPLY (re 59 MOTION for Preliminary Injunction) filed by Commonwealth of Massachusetts,
Commonwealth of Virginia, Dana

45
DATE

DOCKET
NUMBER PROCEEDINGS

Nessel, State of California, State
of Colorado, State of Connecticut,
State of Delaware, State of Hawaii, State of Illinois, State of
Maine, State of Maryland, State
of Minnesota, State of Nevada,
State of New Jersey, State of
New Mexico, State of New York,
State of Oregon, State of Rhode
Island, State of Vermont, State of
Wisconsin. (Attachments: # 1
Supplemental Request for Judicial Notice & Exhibits. 51-53)
(Sherman, Lee) (Filed on 5/2/2019)
(Entered: 05/02/2019)
5/24/19

165

* * * * *
ORDER by Hon. Haywood S.
Gilliam, Jr., DENYING 59
Plaintiffs Motion for Preliminary Injunction, and SETTING
case management conference
for June 5, 2019 at 2:00 p.m.
Case management statement
is due by May 31, 2019.
(hsglc3S,
COURT
STAFF)
(Filed on 5/24/2019) (Entered:
05/24/2019)
* * * * *

46
DATE

5/29/19

6/5/19

DOCKET
NUMBER PROCEEDINGS

167

175

MOTION for Preliminary Injunction filed by State of California.
Responses due by 10/10/2019.
Replies due by 10/15/2019. (Attachments: # 1 Supplement Request for Judicial Notice, # 2
Declaration of Kevin B. Clark,
# 3 Declaration of Nagano, # 4
Declaration of Dunn, # 5 Declaration of Vanderplank, # 6 Proposed Order, # 7 Certificate/
Proof of Service) (Cayaban, Michael) (Filed on 5/29/2019) Modified on 5/30/2019 (cpS, COURT
STAFF). (Entered: 05/29/2019)
* * * * *
Minute Entry for proceedings
held before Judge Haywood S.
Gilliam, Jr.:
Further Case
Management Conference held
on 6/5/2019. FTR Time: 2:012:27.
Plaintiff Attorney:
Dror Ladin, Lee Sherman,
Gavion McCabe, Craig Newby
and Justin Sullivan appearing
via courtcall. Defendant Attorney: Andrew Warden appearing via courtcall. The Court
orders the current preliminary
injunction motion and briefing

47
DATE

6/7/19

DOCKET
NUMBER PROCEEDINGS

173

held in abeyance and orders
that the motion for partial summary judgment briefing concerning Sections 284 and 8005
include issues raised in the
pending preliminary injunction
motion.
The Court sets:
June 12—filing deadline for
motion for partial summary
judgment and August 29, 2019 at
2:00 p.m.-hearing deadline for
motion for summary judgment
on remaining issues. (This is
a text-only entry generated by
the court. There is no document associated with this entry.) (ndrS, COURT STAFF)
(Date Filed:
6/5/2019) (Entered: 06/10/2019)
NOTICE of Filing of Administrative Record For El Paso, Yuma,
El Centro, and Tucson Border
Barrier Projects by Department
of Defense, David Bernhardt,
Mark T. Esper, Steven T.
Mnuchin, Kirstjen M. Nielsen,
Patrick M. Shanahan, Richard V.
Spencer, Donald J. Trump, U.S.
Department of Homeland Security, U.S. Department of the Interior, U.S. Department of the

48
DATE

DOCKET
NUMBER PROCEEDINGS

Treasury, United States of America, Heather Wilson (Attachments: # 1 Exhibit, # 2 Exhibit,
# 3 Exhibit, # 4 Exhibit) (Warden, Andrew) (Filed on 6/7/2019)
Modified on 6/10/2019 (cpS,
COURT STAFF).
(Entered:
06/07/2019)
6/12/19

176

* * * * *
MOTION for Partial Summary
Judgment filed by State of California, State of New Mexico.
Responses due by 6/19/2019.
Replies due by 6/24/2019. (Attachments: # 1 Proposed Order
Proposed Order Granting Plaintiff States of California and New
Mexico’s Motion for Partial Summary Judgment Regarding Sections 284, 8005, and 9002, # 2 Appendix Appendix of Declarations
re Enviromental Harms in Support of Motion for Partial Summary Judgment Regarding Sections 284, 8005, and 9002, # 3
Plaintiff States of California and
New Mexico’s Request for Judicial Notice in Support of Motion
for Partial Summary Judgment
Regarding Sections 284, 8005,

49
DATE

DOCKET
NUMBER PROCEEDINGS

and 9002) (Sherman, Lee) (Filed
on 6/12/2019) Modified on
6/13/2019 (cpS, COURT STAFF).
(Entered: 06/12/2019)
6/19/19

182

* * * * *
MOTION for Partial Summary
Judgment and Opposition to
Plaintiffs’ Motion for Partial
Summary Judgment filed by Department of Defense, David
Bernhardt, Mark T. Esper, Steven T. Mnuchin, Kirstjen M. Nielsen, Patrick M. Shanahan, Richard V. Spencer, Donald J. Trump,
U.S. Department of Homeland
Security, U.S. Department of the
Interior, U.S. Department of the
Treasury, United States of America, Heather Wilson. Responses
due by 6/24/2019. (Attachments:
# 1 Exhibit, # 2 Exhibit, # 3 Exhibit, # 4 Exhibit, # 5 Exhibit, #
6 Exhibit, # 7 Exhibit,
# 8 Exhibit, # 9 Exhibit, # 10 Exhibit, # 11 Exhibit, # 12 Exhibit,
# 13 Exhibit, # 14 Exhibit, # 15
Proposed Order) (Warden, Andrew) (Filed on 6/19/2019) Modified on 6/20/2019 (cpS, COURT
STAFF). (Entered: 06/19/2019)

50
DATE

6/24/19

DOCKET
NUMBER PROCEEDINGS

183

REPLY (re 176 MOTION for
Partial Summary Judgment) filed
by State of California, State of
New Mexico. (Attachments: #
1 Declaration, # 2 Request for
Judicial Notice) (Sherman, Lee)
(Filed on 6/24/2019) (Entered:
06/24/2019)
* * * * *

6/28/19

185

6/28/19

186

6/29/19

187

ORDER by Judge Haywood S.
Gilliam, Jr., GRANTING IN PART
and DENYING IN PART 176
Plaintiffs’ Motion for Partial
Summary Judgment; DENYING
182 Defendants’ Motion for Partial Summary Judgment; CERTIFYING Judgment for Appeal.
(hsglc3S, COURT STAFF) (Filed
on 6/28/2019) (Entered:
06/28/
2019)
PARTIAL JUDGMENT. Signed
by Judge Haywood S. Gilliam, Jr.
on 6/28/2019. (hsglc3S, COURT
STAFF) (Filed on 6/28/2019) Modified on 7/9/2019 (cpS, COURT
STAFF). (Entered: 06/28/2019)

NOTICE OF APPEAL to the 9th
Circuit Court of Appeals filed by
Department of Defense, David
Bernhardt, Mark T. Esper, Ste-

51
DATE

DOCKET
NUMBER PROCEEDINGS

ven T. Mnuchin, Kirstjen M. Nielsen, Patrick M. Shanahan, Richard V. Spencer, Donald J. Trump,
U.S. Department of Homeland
Security, U.S. Department of the
Interior, U.S. Department of the
Treasury, United States of America. Appeal of Judgment 186,
Order on Motion for Partial Summary Judgment,,, 185 (Appeal fee
FEE WAIVED.) (Warden, Andrew) (Filed on 6/29/2019) (Entered: 06/29/2019)
7/1/19

189

* * * * *
USCA Case Number 19-16299
Ninth Circuit Court of Appeals
for 187 Notice of Appeal,, filed by
U.S. Department of Homeland
Security, David Bernhardt, Richard V. Spencer, Mark T. Esper,
Department of Defense, United
States of America, Patrick M.
Shanahan, U.S. Department of
the Interior, Kirstjen M. Nielsen,
Steven T. Mnuchin, U.S. Department of the Treasury, Donald J.
Trump. (cjlS, COURT STAFF)
(Filed on 7/1/2019) (Entered:
07/01/2019)

52
DATE

7/8/19

7/8/19

DOCKET
NUMBER PROCEEDINGS

191

193

* * * * *
NOTICE OF CROSS APPEAL
as to 186 Judgment, 185 Order on
Motion for Partial Summary
Judgment,,, by State of California, State of New Mexico. (Appeal fee of $505 receipt number
0971-13498158 paid.)
Appeal
Record due by 8/7/2019. (Sherman, Lee) (Filed on 7/8/2019)
(Entered: 07/08/2019)
* * * * *
USCA Case Number 19-16336
Ninth Circuit Court of Appeals
for 191 Notice of Cross Appeal to
the Ninth Circuit, filed by State
of California, State of New Mexico.
(cjlS, COURT STAFF)
(Filed on 7/8/2019) (Entered:
07/09/2019)
* * * * *

53
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
(OAKLAND)

Docket No. 4:19-cv-00892-HSG
SIERRA CLUB, ET AL, PLAINTIFFS
v.
DONALD J. TRUMP, ET AL., DEFENDANTS
DOCKET ENTRIES
DATE

2/19/19

DOCKET
NUMBER PROCEEDINGS

1

COMPLAINT FOR DECLARATORY AND INJUNCTIVE RELIEF against Steven Mnuchin,
Kirstjen M. Nielsen, Patrick M.
Shanahan, Donald J. Trump ( Filing fee $400, receipt number
0971-13103766.). Filed by Sierra
Club, Southern Border Communities Coalition. (Attachments:
# 1 Exhibit A, # 2 Civil Cover
Sheet) (Wang, Cecillia) (Filed on
2/19/2019) (Entered: 02/19/2019)
* * * * *

3/6/19

24

ORDER RELATING CASE TO
19-cv-0872-HSG. Signed by Judge
Haywood S. Gilliam, Jr. on
3/6/2019. (ndrS, COURT STAFF)
(Filed on 3/6/2019) (Entered:

54
DATE

3/18/19

4/4/19

4/25/19

DOCKET
NUMBER PROCEEDINGS
03/06/2019)

26

29

64

* * * * *
AMENDED COMPLAINT for
Declaratory and Injunctive Relief against All Defendants.
Filed by Sierra Club, Southern
Border Communities Coalition.
(Attachments: # 1 Exhibit A,
# 2 Certificate/Proof of Service)
(Ladin, Dror) (Filed on 3/18/2019)
Modified on 3/19/2019 (jjbS,
COURT STAFF).
(Entered:
03/18/2019)
* * * * *
MOTION for Preliminary Injunction filed by Sierra Club, Southern Border Communities Coalition. Motion Hearing set for
5/9/2019 02:00 PM in Oakland,
Courtroom 2, 4th Floor before
Judge Haywood S Gilliam Jr..
Responses due by 4/18/2019.
Replies due by 4/25/2019. (Attachments: # 1 Proposed Order,
# 2 Certificate of Service) (Ladin,
Dror) (Filed on 4/4/2019) (Entered: 04/04/2019)
* * * * *
OPPOSITION/RESPONSE

(re

55
DATE

DOCKET
NUMBER PROCEEDINGS

29 MOTION for Preliminary Injunction)
filed
by
Steven
Mnuchin, Kirstjen M. Nielsen,
Patrick M. Shanahan, Donald J.
Trump. (Attachments: # 1 Exhibit 1, # 2 Exhibit 2, # 3 Exhibit
3, # 4 Exhibit 4, # 5 Exhibit 5, #
6 Exhibit 6, # 7 Exhibit
7, # 8 Exhibit 8, # 9 Exhibit 9,
# 10 Exhibit 10, # 11 Exhibit
Index) (Westmoreland, Rachael)
(Filed on 4/25/2019) (Entered:
04/25/2019)
5/2/19

91

* * * * *
REPLY (re 29 MOTION for Preliminary Injunction) filed by Sierra Club, Southern Border Communities Coalition.
(Attachments: # 1 Supplemental Declaration of Christina Patino Houle,
# 2 Supplemental Declaration of
Kevin Bixby) (Ladin, Dror) (Filed
on
5/2/2019)
(Entered:
05/02/2019)
* * * * *

5/24/19

144

ORDER by Hon. Haywood S.
Gilliam, Jr., GRANTING IN PART
and DENYING IN PART 29 Plaintiffs Motion for Preliminary In-

56
DATE

DOCKET
NUMBER PROCEEDINGS
junction, and SETTING case management conference for June 5,
2019 at 2:00 p.m. Case management statement is due by May 31,
2019. (hsglc3S, COURT STAFF)
(Filed on 5/24/2019) (Entered:
05/24/2019)

5/29/145

145

5/29/19

146

* * * * *
NOTICE OF APPEAL to the 9th
Circuit Court of Appeals filed by
Steven Mnuchin, Kirstjen M.
Nielsen, Patrick M. Shanahan,
Donald J. Trump. Appeal of Order on Motion for Preliminary Injunction, 144 (Appeal fee FEE
WAIVED.) (Warden, Andrew)
(Filed on 5/29/2019) (Entered:
05/29/2019)
MOTION to Stay re 144 Order on
Motion for Preliminary Injunction, Pending Appeal filed by Steven Mnuchin, Kirstjen M. Nielsen, Patrick M. Shanahan, Donald J. Trump. Responses due by
6/12/2019. Replies due by 6/19
/2019. (Attachments: # 1 Exhibit, # 2 Exhibit, # 3 Exhibit,
# 4 Exhibit, # 5 Exhibit, # 6 Proposed Order) (Warden, Andrew)
(Filed on 5/29/2019) Modified on
5/30/2019 (cpS, COURT STAFF).

57
DATE

DOCKET
NUMBER PROCEEDINGS

(Entered: 05/29/2019)
5/29/19

5/29/19

148

150

* * * * *
USCA Case Number 19-16102
Ninth Circuit Court of Appeals
for 145 Notice of Appeal, filed by
Steven Mnuchin, Kirstjen M.
Nielsen, Patrick M. Shanahan,
Donald J. Trump. (cjlS, COURT
STAFF) (Filed on 5/29/2019) (Entered: 05/29/2019)
* * * * *
MOTION for Supplemental Preliminary Injunction filed by Sierra Club, Southern Border Communities Coalition. Responses
due by 6/10/2019. Replies due by
6/13/2019. (Attachments: # 1
Declaration of Gayle G. Hartmann, # 2 Declaration of Ralph
Hudson, # 3 Declaration of Kevin
Arthur Dahl, # 4 Declaration of
Bill Broyles, # 5 Declaration of
Patricia Gerrodette, # 6 Declaration of Margaret Case, # 7 Declaration of Carmina Ramirez, # 8
Declaration of Cyndi C. Tuell, # 9
Declaration of Roy Armenta Sr.,
# 10 Proposed Order) (Ladin,

58
DATE

DOCKET
NUMBER PROCEEDINGS

Dror) (Filed on 5/29/2019) Modified on 5/30/2019 (cpS, COURT
STAFF). Modified on 5/30/2019
(cpS, COURT STAFF).
(Entered: 05/29/2019)
* * * * *
5/30/19

152

ORDER by Judge Haywood S.
Gilliam, Jr. DENYING 146 MOTION TO STAY PRELIMINARY
INJUNCTION (147 Motion to
Shorten Time is terminated as
moot). (ndrS, COURT STAFF)
(Filed on 5/30/2019) (Entered:
05/30/2019)

* * * * *
6/5/19

165

Minute Entry for proceedings held
before Judge Haywood S. Gilliam,
Jr.: Further Case Management
Conference held on 6/5/2019.
FTR Time: 2:01-2:27. Plaintiff
Attorney: Dror Ladin, Lee Sherman, Gavion McCabe, Craig
Newby and Justin Sullivan appearing via courtcall. Defendant Attorney: Andrew Warden appearing via courtcall. The Court orders the current preliminary injunction motion and briefing held
in abeyance and orders that the
motion for partial summary judgment briefing concerning Sections

59
DATE

6/7/19

6/12/19

DOCKET
NUMBER PROCEEDINGS
284 and 8005 include issues raised
in the pending preliminary injunction motion.
The Court sets:
June 12—filing deadline for motion for partial summary judgment and August 29, 2019 at 2:00
p.m.-hearing deadline for motion
for summary judgment on remaining issues. (This is a text-only
entry generated by the court.
There is no document associated
with this entry.) (ndrS, COURT
STAFF) (Date Filed:
6/5/2019)
(Entered: 06/10/2019)

163

168

NOTICE of Filing of Administrative Record For El Paso, Yuma,
El Centro, and Tucson Border
Barrier Projects by Steven
Mnuchin, Kirstjen M. Nielsen,
Patrick M. Shanahan, Donald J.
Trump (Attachments: # 1 Exhibit, # 2 Exhibit, # 3 Exhibit,
# 4 Exhibit) (Warden, Andrew)
(Filed on 6/7/2019) Modified on
6/10/2019 (cpS, COURT STAFF).
(Entered: 06/07/2019)
* * * *
MOTION
Judgment
Southern
Coalition.

*
for Partial Summary
filed by Sierra Club,
Border Communities
Responses due by

60
DATE

DOCKET
NUMBER PROCEEDINGS

6/19/2019.
Replies due by
6/24/2019. (Attachments: # 1
Appendix of Declarations, # 2
Request for Judicial Notice, # 3
Proposed Order) (Zafar, Noor)
(Filed on 6/12/2019) (Entered:
06/12/2019)
6/19/19

181

6/24/19

182

* * * * *
MOTION for Partial Summary
Judgment and Opposition to
Plaintiffs’ Motion for Partial
Summary Judgment filed by Steven Mnuchin, Kirstjen M. Nielsen, Patrick M. Shanahan, Donald J. Trump. Responses due by
6/24/2019. (Attachments: # 1
Exhibit, # 2 Exhibit, # 3 Exhibit,
# 4 Exhibit, # 5 Exhibit, # 6 Exhibit, # 7 Exhibit, # 8 Exhibit,
# 9 Exhibit, # 10 Exhibit, # 11
Exhibit, # 12 Exhibit, # 13 Exhibit, # 14 Proposed Order)
(Warden, Andrew) (Filed on
6/19/2019) Modified on 6/20/2019
(cpS, COURT STAFF).
(Entered: 06/19/2019)
REPLY (re 168 MOTION for
Partial Summary Judgment) filed
by Sierra Club, Southern Border

61
DATE

DOCKET
NUMBER PROCEEDINGS

Communities Coalition.
(Attachments: # 1 Exhibit) (Zafar,
Noor) (Filed on 6/24/2019) (Entered: 06/24/2019)
* * * * *
6/28/19

185

6/28/19

186

6/29/19

187

ORDER by Judge Haywood S.
Gilliam, Jr., GRANTING IN PART
and DENYING IN PART 168
Plaintiffs’ Motion for Partial
Summary Judgment; DENYING
181 Defendants’ Motion for Partial Summary Judgment; CERTIFYING Judgment for Appeal;
DENYING Request to Stay.
(hsglc3S, COURT STAFF) (Filed
on
6/28/2019)
(Entered:
06/28/2019)
PARTIAL JUDGMENT. Signed
by Judge Haywood S. Gilliam, Jr.
on 6/28/2019. (hsglc3S, COURT
STAFF) (Filed on 6/28/2019) Modified on 7/9/2019 (cpS, COURT
STAFF). (Entered: 06/28/2019)

NOTICE OF APPEAL to the 9th
Circuit Court of Appeals filed by
Steven Mnuchin, Kirstjen M.
Nielsen, Patrick M. Shanahan,
Donald J. Trump. Appeal of Order on Motion for Partial Summary Judgment,,, 185, Judgment
186 (Appeal fee FEE WAIVED.)

62
DATE

DOCKET
NUMBER PROCEEDINGS

(Warden, Andrew) (Filed on 6/29/
2019) (Entered: 06/29/2019)
7/1/19

189

* * * * *
USCA Case Number 19-16300
Ninth Circuit Court of Appeals
for 187 Notice of Appeal, filed by
Steven Mnuchin, Kirstjen M.
Nielsen, Patrick M. Shanahan,
Donald J. Trump. (cjlS, COURT
STAFF) (Filed on 7/1/2019) (Entered: 07/01/2019)
* * * * *

63
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
OAKLAND DIVISION

No. 4:19-cv-00872-HSG
STATE OF CALIFORNIA, ET AL. AND SIERRA CLUB,
ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, ET AL., DEFENDANTS
SECOND DECLARATION OF
MILLARD F. LEMASTER

I, Millard F. LeMaster, declare as follows:
1.

I am the Deputy Chief, United States Border
Patrol Strategic Planning and Analysis Directorate (SPAD), U.S. Customs and Border Protection (CBP), an agency of the Department of
Homeland Security. I have held this position
since February 2018. Over the course of my career I have served in multiple roles within the
United States Border Patrol (USBP). I entered on duty with USBP in 2000. In that time
I have served as a frontline Border Patrol Agent
for five years, a Supervisory Border Patrol
Agent for two different USBP Stations over the
course of four years, and a second line supervisor in the field (Field Operations Supervisor,
Watch Commander, and Deputy Patrol Agent In
Charge) for two years until promotion to USBP
Headquarters. Over the course of more than
five years at the headquarters level I have served

64
as an Assistant Chief, Associate Chief, and finally as the Deputy Chief for SPAD.
2.

In my current position I am personally aware of
the fiscal year 2018 drug apprehensions for the
USBP, including drug seizures in the USBP’s Tucson Sector (Tucson Sector). In addition, in my
current position I am personally aware of the fiscal year 2019 year-to­date drug seizures for the
USBP’s Tucson and El Centro Sectors.

3.

The statements in this declaration are based on
my personal knowledge and information that I
have received in my official capacity.

4.

On February 25, 2019, the Department of Homeland Security (DHS) submitted a Request for
Assistance (RFA) to the Department of Defense
pursuant to 10 U.S.C. § 284.

5.

As part of the RFA, DHS set forth drug seizure
numbers for fiscal year 2018 for various Border
Patrol Sectors, including the Tucson Sector.

6.

The RFA understated the amount of marijuana,
cocaine, and heroin seized in the Tucson Sector
in fiscal year 2018. Specifically, the RFA stated
that the Border Patrol seized over 1,600 pounds
of marijuana in the Tucson Sector in fiscal year
2018, however, the actual amount is over 134,000
pounds of marijuana. With respect to cocaine,
the RFA stated that the Border Patrol seized
over 52 pounds of cocaine in the Tucson Sector
in fiscal year 2018, however, the actual amount
is 62 pounds of cocaine. Finally, with respect to
heroin, the RFA stated that the Border Patrol

65
seized over 48 pounds of heroin, however, the actual amount is over 91 pounds of heroin.
7.

Year-to-date in fiscal year 2019, there have been
944 drug events between border crossings in the
Tucson Sector, through which USBP has seized
over 44,000 pounds of marijuana, over 82 pounds
of cocaine, over 800 ounces of heroin, over 2,300
pounds of methamphetamine, and over two
pounds of fentanyl.

8.

Year-to-date in fiscal year 2019, there have been
107 drug events between border crossings in the
El Centro Sector, through which USBP has seized
over 117 pounds of marijuana, over 15 pounds of
cocaine, over 500 ounces of heroin, over 1,200
pounds of methamphetamine, and over 30 pounds
of fentanyl.

This declaration is made pursuant to 28 U.S.C. § 1746.
I declare under penalty of perjury that the foregoing is
true and correct to the best of my current knowledge.
Executed on this 19th day of June, 2019,
/s/

MILLARD F. LEMASTER
MILLARD F. LEMASTER
Deputy Chief
Strategic Planning and Analysis Directorate
United States Border Patrol

66
DRAFT // PRE-DECISIONAL // DELIBERATIVE
ACTION MEMO

Prepared by: Tom LaCrosse, OASD(HD&GS)
Phone Number: (571) 256-8353
[KR] [May 6, 2019]
FOR:

ACTING SECRETARY OF DEFENSE

FROM: Kenneth P. Rapuano, Assistant Secretary of

Defense, Homeland Defense & Global Security

SUBJECT:

Request for Assistance Pursuant to 10
U.S.C. § 284—Approval of Additional Support to the Department of Homeland Security

PURPOSE:

To obtain your approval of a second tranche
of assistance to the Department of Homeland Security (DHS) in blocking drugsmuggling corridors along the southern
border: and for you to direct specific actions by the Under Secretary of Defense
(Comptroller)/Chief Financial Officer
(USD(C)/CFO), the Secretary of the
Army, and the Commander, U.S. Army
Corps of Engineers.

COORDINATION:

BLUF:

This action was coordinated with
SecArmy, USD(C)/CFO, OGC, and
the Joint Staff.

Approving this request will support DHS’s
efforts to secure the southern border by
blocking drug-smuggling corridors.
You
have the authority under 10 U.S.C. § 284 to
construct roads and fences, and to install

67
lighting, to block drug-smuggling corridors
across international boundaries of the United
States in support of counter-narcotics activities of Federal law enforcement agencies.
DISCUSSION:

•

10 U.S.C. § 284 gives you the authority to construct
roads and fences, and to install lighting, to block drugsmuggling corridors across international boundaries of the United States in support of counterdrug
activities of Federal law enforcement agencies.

•

Funding for assistance provided pursuant to 10
U.S.C. § 284 comes from the counter­narcotics support line in DoD’s “Drug Interdiction and CounterDrug Activities, Defense” appropriation.

•

On February 25, 2019, DHS requested DoD assistance in blocking up to 11 specific drug­smuggling
corridors on Federal land along the southern border
of the United States. DHS requested that DoD
provide this support in order of stated priority as
DoD resources allow by (1) replacing existing vehicle
barricades or dilapidated pedestrian barricades
with construction of new pedestrian fences (i.e.
fences that would block both vehicles and pedestrians), (2) constructing new and improving existing patrol roads, and (3) installing lighting (TAB D). This
support to DHS is consistent with the President’s direction in his April 4, 2018, memorandum, “Securing
the Southern Border of the United States.”

•

On March 25, 2019, you approved a portion of
the DHS request for assistance in blocking drugsmuggling corridors on the southern border pursuant to 10 U.S.C. § 284. Specifically, you approved

68
the construction of roads and fences and installation
of lighting for 3 DHS priority projects totaling 57
miles of fencing across DHS’s top three priority
projects (Yuma Sector Project 1, Yuma Sector Project 2, and El Paso Sector Project 1 ). To fund this
support, you directed the transfer of $1B into the
“Drug Interdiction and Counter-Drug Activities,
Defense” appropriation (TAB E).
•

On April 9, 2019, you approved a design modification
to this support requested by DHS. Specifically, you
approved construction of 30-foot steel bollard with
anti-climb plate for Yuma Sector Project 1 and El
Paso Sector Project 1 and 18-foot steel bollard with
anti-climb plate for Yuma Sector Project 2 (TAB F’).

•

The U.S. Army Corps of Engineers (USACE) is prepared to proceed with the following DHS priority
projects as undefinitized contractual actions, including initial project scoping and contracting, pursuant
to 10 U.S.C. § 284.
DHS
Priority

Project Name

4

El Centro Sector
Project 1
Tucson Sector
Project 1
Tucson Sector
Project 2
Tucson Sector
Project 3

5
6
7

Cost/Miles
$20.7 per mile
30-foot bollard
15.25 miles
38 miles
5 miles
20 miles

TOTAL $1.5B/78.25 miles

* * * * *

69
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
OAKLAND DIVISION

No. 4:19-cv-00892-HSG
SIERRA CLUB, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, ET AL., DEFENDANTS
DECLARATION OF MILLARD F. LEMASTER

I, Millard F. LeMaster, declare as follows:
1.

I am the Deputy Chief, United States Border
Patrol Strategic Planning and Analysis Directorate (SPAD), U.S. Customs and Border Protection (CBP), an agency of the Department of
Homeland Security. I have held this position
since February 2018. Over the course of my career I have served in multiple roles within the
United States Border Patrol (USBP). I entered on duty with USBP in 2000. In that time
I have served as a frontline Border Patrol Agent
for five years, a Supervisory Border Patrol Agent
for two different USBP Stations over the course
of four years, and a second line supervisor in the
field (Field Operations Supervisor, Watch Commander, and Deputy Patrol Agent In Charge)
for two years until promotion to USBP Headquarters. Over the course of more than five
years at the headquarters level I have served as
an Assistant Chief, Associate Chief, and finally
as the Deputy Chief for SPAD.

70
2.

In my current position I am personally aware of
the fiscal year 2019 year-to-date drug apprehensions for the United States Border Patrol El
Paso Sector (El Paso Sector) and the United
States Border Patrol Yuma Sector (Yuma Sector).

3.

The statements in this declaration are based on
my personal knowledge and information that I
have received in my official capacity.

4.

Year-to-date in fiscal year 2019, there have been
314 drug events between border crossings in the
El Paso Sector, through which USBP has seized
over 9,500 pounds of marijuana, over 113 pounds
of cocaine, over 139 ounces of heroin, over 228
pounds of methamphetamine, and over two
pounds of fentanyl.

5.

Year-to-date in fiscal year 2019, there have been
478 drug events between border crossings in the
Yuma Sector, through which USBP has seized
over 2,166 pounds of marijuana, .04 pounds of cocaine, over 160 ounces of heroin, over 664 pounds
of methamphetamine, and over 36 pounds of fentanyl.

71
This declaration is made pursuant to 28 U.S.C. § 1746.
I declare under penalty of perjury that the foregoing is
true and correct to the best of my current knowledge.
Executed on this 28th day of May, 2019.
/s/ MILLARD F. LEMASTER
MILLARD F. LEMASTER
Deputy Chief
Strategic Planning and Analysis Directorate
United States Border Patrol

72
SECOND DECLARATION OF
KENNETH P. RAPUANO
I, KENNETH P. RAPUANO, pursuant to 28 U.S.C.
§ 1746, hereby declare as follows:
1. I am the Assistant Secretary of Defense for Homeland Defense and Global Security (ASD(HD&GS)).
Among other duties, which are generally reflected in Department of Defense (DoD) Directive 5111.13, I am responsible for developing, coordinating, and overseeing
implementation of DoD policy for plans and activities
related to defense support of civil authorities. On April
5, 2018, the Secretary of Defense designated the
ASD(HD&GS) to manage the then-newly established
DoD Border Security Support Cell. The DoD Border
Security Support Cell is the focal point and integrator
for all requests for assistance, taskings, and information
related to DoD support pursuant to the President’s April
4, 2018, memo, “Securing the Southern Border of the
United States.”
2. This declaration is based on my own personal knowledge and information made available to me in the course
of my official duties.
3. I previously executed a declaration dated April 25,
2019, that explained the status of DoD’s support to the
Department of Homeland Security (DHS) pursuant to
10 U.S.C. § 284 in response to a February 25, 2019, request from DHS for assistance in blocking up to 11 specific drug­smuggling corridors along certain portions of
the southern border of the United States. The declaration explained that, on March 25, 2019, the Acting Secretary of Defense agreed to provide assistance to DHS
to construct fencing to block drug-smuggling corridors

73
in three project areas along of the southern border of
the United States. The project areas are identified and
described in my declaration as Yuma Sector Project I,
Yuma Sector Project 2, and El Paso Sector Project 1.
The declaration explained that the Acting Secretary of
Defense decided to use DoD’s general transfer authority
under section 8005 of the Department of Defense Appropriations Act, 2019, and section 1001 of the John S.
McCain National Defense Authorization Act for Fiscal
Year 2019 to transfer $1 billion between DoD appropriations to fund the approved projects.
4. My prior declaration also explained that the project
identified as Yuma Sector Project 2 would be constructed pursuant to section 284 with money transferred
pursuant under section 8005 of the Department of Defense Appropriations Act, 2019, and section 1001 of the
John S. McCain National Defense Authorization Act for
Fiscal Year. The U.S. Anny Corps of Engineers has
since decided not to fund or construct Yuma Project 2
under these authorities.
* * * * *

74
SECRETARY OF DEFENSE
1000 DEFENSE PENTAGON
WASHINGTON, DC 20301-1000

[5/9/19]
MEMORANDUM FOR ACTING SECRETARY
OF HOMELAND SECURITY
SUBJECT:

Additional Support to the Department of
Homeland Security

The Department of Defense appreciates that the Department of Homeland Security (DHS) confronts a continuing and worsening crisis at the southern border.
As I indicated in my March 25, 2019 letter, in which I
approved the undertaking of three projects to support
to your Department’s effort to secure the southern border by blocking drug-smuggling corridors along the border through the construction of roads and fences and the
installation of lighting, the Department of Defense has
continued to assess the availability of resources and other
factors in order to determine how additional similar support can be provided to DHS.
10 U.S.C. § 284(b)(7) gives the Department of Defense the authority to construct roads and fences and to
install lighting to block drug-smuggling corridors across
international boundaries of the United States in support
of counterdrug activities of Federal law enforcement
agencies. For the following reasons, I have concluded
that the support requested on February 25, 2019, satisfies the statutory requirements:
•

DHS/Customs and Border Protection (CBP) is a
Federal law enforcement agency;

75
•

DHS has identified each project area as a drugsmuggling corridor; and

•

The work requested by DHS to block these identified drug-smuggling corridors involves construction of fences (including linear ground detection systems); construction of roads, and installation of lighting (supported by grid power
and including imbedded cameras).

Accordingly, at this time I have decided to undertake
4 additional projects, namely El Centro Sector Project
1, Tucson Sector Project 1, Tucson Sector Project 2, and
Tucson Sector Project 3, by constructing 78.25 miles of
30-foot pedestrian fencing, constructing and improving
roads, and installing lighting as described in the February 25, 2019 request.
As the proponent of the requested action, CBP will
serve as the lead agency for environmental compliance
and will be responsible for providing all necessary access to land. I request that DHS place the highest priority on completing these actions for the projects identified above. DHS will accept custody of the completed
infrastructure, account for that infrastructure in its real
property records, and operate and maintain the completed infrastructure.
The Commander, U.S. Army Corps of Engineers, is
authorized to coordinate directly with DHS/CBP and
immediately begin planning and executing up to $1.5B
in support to DHS/CBP by undertaking the projects
identified above.
/s/

PATRICK M. SHANAHAN
PATRICK M. SHANAHAN
Acting

76
SECRETARY OF DEFENSE
1000 DEFENSE PENTAGON
WASHINGTON, DC 20301-1000

[5/9/19]
MEMORANDUM FOR UNDER SECRETARY
OF DEFENSE (COMPTROLLER)/
CHIEF FINANCIAL OFFICER
SUBJECT:

Additional Funding Construction in Support of the Department of Homeland Security Pursuant to 10 U.S.C. § 284

On February 25, 2019 the Secretary of Homeland Security requested that DoD provide support to the efforts
of the Department of Homeland Security (DHS) to secure the southern border by blocking up to 11 drugsmuggling corridors along the border through the construction of roads and fences and the installation of
lighting. I have determined that the requirements of
title 10, U.S. Code, section 284, have been satisfied. Accordingly, I have approved DoD support for El Centro
Sector Project 1, Tucson Section Project 1, Tucson Sector Project 2, and Tucson Sector Project 3 (DHS Priority Projects 4, 5, 6, and 7) and have authorized up to
$1.5B in funding for the construction of 30-foot pedestrian fencing, the construction and improvement of
roads, and the installation of lighting to block drugsmuggling corridors along the southern border.
I have also decided that the Department will transfer
both base funds and funds designated for Overseas Contingency Operations to provide the support described
above. This support will be funded through a transfer
of $1.5B from the accounts identified in the Enclosure

77
into the “Drug Interdiction and Counter-Drug Activities, Defense” appropriation. I am advised that the
amounts are excess or early to current programmatic
needs. You should undertake a reprogramming action
to effectuate such transfer, as authorized by law.
The reprogramming action that I am directing satisfies the statutory requirements. I have determined
that a transfer of funds and authorization of appropriations for the construction of fences and roads and the
installation of lighting to block drug-smuggling corridors is in the national interest. In an April 4, 2018
memorandum, “Securing the Southern Border of the
United States,” the President directed DoD to assist
DHS in stopping the flow of illegal drugs into the United
States. The reprogramming action is necessary to advance that goal. I have also determined that the other
requirements of section 8005 and 9002 of the DoD Appropriations Act, 2019, and section 1001 and 1512 of the
John S. McCain National Defense Authorization Act for
FY 2019 are met as set forth below:
•

The items to be funded (El Centro Sector Project 1, Tucson Section Project 1, Tucson Sector
Project 2, and Tucson Sector Project 3) are a
higher priority that the items from which funds
and authorizations are transferred because these
projects are necessary in the national interest to
prevent the flow of drugs into the United States,
and the items from which funds and authorizations are transferred are excess or early to need.

•

Support to law enforcement under section 284
for the construction of fences and roads and the
installation of lighting to block drug-smuggling
corridors is a military requirement assigned by

78
statute. The need to provide support for the
above projects was an unforeseen military requirement not known at the time of the FY 2019
budget request.
•

Support under section 284 for construction of
roads and fences and the installation of lighting,
including for the projects listed above, has not
been denied by Congress. Congress has not enacted legislation that denies funding for the item
referenced in the transfer—namely counter- drug
activities funding, including fence construction,
under § 284(b)(7).

I have determined that providing the requested support for the projects listed above will not adversely affect the military preparedness of the United States.
The sources of funds to be utilized to provide this support are identified in the Enclosure. Utilizing these
funds for support to DHS does not affect the military
preparedness of the United States because they are excess or early to current programmatic needs.
This $1.5B in funds will be allocated to the Department of the Army with instructions to allocate it further
to the U.S. Army Corps of Engineers to undertake fence
and road construction and lighting installation, including initial project scoping and contracting, for the approved projects.
No funds may be transferred or re-programmed
from the drug-demand-reduction program, the National
Guard counter-drug program, or the National Guard
counter-drug schools program in order to fund subsection 284(b)(7) support to DHS.

79
You will comply with all statutory requirements, but
will do so without regard to comity-based policies that
require prior approval from congressional committees.
My point of contact is Kenneth Rapuano, Assistant
Secretary of Defense for Homeland Defense and Global
Security.
/s/

PATRICK M. SHANAHAN
PATRICK M. SHANAHAN
Acting

Enclosure:
As stated
cc:
Secretaries of the Military Departments
Chairman of the Joint Chiefs of Staff
Under Secretary of Defense for Policy
General Counsel of the Department of Defense
Assistant Secretary of Defense for Legislative Affairs
Assistant Secretary of Defense for Homeland Defense
and Global Security
Assistant to the Secretary of Defense for Public Affairs
Commander, U.S. Army Corps of Engineers

80

Feb. 25, 2019
MEMORANDUM FOR: CAPT Hallock N. Mohler Jr.
Executive Secretary
Department of Defense (DoD)
FROM:

Christina Bobb
/s/ CHRISTINA BOBB
Executive Secretary
Department of Homeland
Security (DHS)

SUBJECT:

Request for Assistance Pursuant to 10 U.S.C. § 284

I.

Overview

As the government department tasked with border security the Department of Homeland Security (DHS)
through U.S. Customs and Border Protection (CBP), is
requesting that the Department of Defense assist DHS
in its efforts to secure the southern border. The Secretary has directed me to transmit this request for assistance to your attention. This memorandum supersedes
the February 22, 2019 version.
In Section 102 of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996 as amended (IIRIRA)
8 U.S.C. § 1103 note, Congress has directed DHS to con-

81
struct border infrastructure in areas of high illegal entry to deter illegal crossing of both drugs and people into
the United States. Pursuant to Section 102, DHS has
identified the areas set forth in Section II below as areas
of high illegal entry where CBP must take action (the
Project Areas).
Within the Project Areas, DHS is experiencing large numbers of individuals and narcotics being smuggled into
the country illegally. The Project Areas are also used
by individuals, groups, and transnational criminal organizations as drug smuggling corridors. Mexican Cartels continue to remain dominant in these, areas influencing and controlling narcotics and human smuggling
operations within their respective strongholds.
DHS must use its authority under Section 102 of IIRIRA
to install additional physical barriers and roads in the
vicinity of the United States border in order to deter and
prevent illegal crossings within the Project Areas. The
construction of border infrastructure within the Project
Areas will support DHS’s ability to impede and deny illegal entry and drug smuggling activities within the
Project Areas.
The Project Areas identified are adjacent to some of the
most densely populated metropolitan areas of Mexico
and are also home to some of the strongest and most violent drug cartels in the world. Deterring and preventing illegal cross-border activity will help stem the flow
of illegal narcotics and entries in these areas. Similarly,
the improved ability to impede, deny, and be mobile
within the Project Areas creates a safer operational environment for law enforcement.

82
To support DHS’s action under Section 102 of IIRIRA,
DHS is requesting that DoD, pursuant to its authority
under 10 U.S.C. § 284(b)(7), assist with the construction
of fences roads, and lighting within the Project Areas to
block drug-smuggling corridors across the international
boundary between the United States and Mexico.
II. Capabilities Requested

Within the Project Areas there is existing vehicle fence
and dilapidated pedestrian fencing. Vehicle fencing is
intended to stop vehicles from illegally entering the
United States, but can be climbed over or under by individuals. Pedestrian fencing is intended to prevent and
deter individuals and vehicles from illegally crossing
into the United States.
DHS requests that DoD assist in the execution of projects, within the Project Areas set forth below, to: (1)
replace existing vehicle barriers or dilapidated pedestrian fencing with new pedestrian fencing; (2) construct
roads; and (3) install lighting.
The new pedestrian fencing includes a Linear Ground
Detection System, which is intended to, among other
functions, alert Border Patrol agents when individuals
attempt to damage, destroy or otherwise harm the barrier. The road construction includes the construction
of new roads and the improvement of existing roads.
The lighting that is requested has an imbedded camera
that works in conjunction with the pedestrian fence.
The lighting must be supported by grid power.
The segments of fence within the Project Areas identified below are situated on federal property. DHS will
be responsible for securing, to the extent required, any
other real estate interest or instrument that is required

83
for project execution. In the event a real estate interest or instrument that is needed for project execution
cannot be obtained for a segment of fence within a Project Area in a time frame that is within the requirements
of this request for assistance, the segment may be withdrawn from this request. In addition, DHS will be responsible for any applicable environmental planning and
compliance to include stakeholder outreach and consultation associated with the projects.
Project Areas:
II.A.

El Centro Sector

Within the United States Border Patrol El Centro Sector (El Centro Sector) DHS is requesting that DoD assist by undertaking road construction, by replacing approximately 15 miles of existing vehicle barrier with new
pedestrian fencing, and by installing lighting in the specific locations identified below.
The specific Project Area identified below is located in
Imperial County, California and has been identified by
the Office of National Drug Control Policy (ONDCP) as
a High Intensity Drug Trafficking Area (HIDTA). Multiple local transnational criminal organizations known for
smuggling drugs into Calexico from Mexico using a variety of tactics, techniques, procedures, and varying concealment methods operate in this area, including Cartel
De Jalisco Nueva Generacíon (CJNG) as well as remnants of the Beltran Leyva Organization and La Familia Michoacana organizations. CJNG, based in Jalisco, was previously a faction of the Sinaloa Cartel.
CJNG broke away from the Sinaloa Cartel and has become an established Mexican Cartel. The Mexican

84
government has declared CJNG as one of the most dangerous cartels in the country.
Due to the close proximity of urban areas on both sides
of the border, the El Centro Sector suffers from some of
the quickest vanishing times—that is, the time it takes
to illegally cross into the United States and assimilate
into local, legitimate traffic. These quick vanishing times
enable the illegal activities of transnational criminal organizations, whether they are smuggling people or narcotics.
Border Patrol’s own experience with apprehensions between border crossings bears this out. In fiscal year
2018, there were over 29,000 apprehensions of illegal entrants attempting to enter the United States between
border crossings in the El Centro Sector. Also in fiscal
year 2018, Border Patrol had approximately 200 separate drug-related events between border crossings in
the El Centro Sector, through which it seized over 620
pounds of marijuana, over 165 pounds of cocaine, over
56 pounds of heroin, and over 1,600 pounds of methamphetamine.
The specific Project Area is as follows:
•

El Centro Project 1:
o

The project begins approximately 10 miles
west of the Calexico Port of Entry continuing west 15.25 miles in Imperial County.

o

Start coordinate: 32.63273, -115.922787;
End coordinate: 32.652563, -115.662399

85
II.B.

Yuma Sector

Within the United States Border Patrol Yuma Sector
(Yuma Sector) DHS is requesting that DoD assist by undertaking road construction, by replacing approximately
36 miles of existing vehicle barrier and approximately 6
miles of dilapidated pedestrian fencing with new pedestrian fencing, and by installing lighting in the specific
locations identified below. The specific areas identified
below are located in Yuma County, Arizona.
Yuma County has been identified by the ONDCP as a
HIDTA. Of particular note is the operation of the Sinaloa Cartel in this area. The Sinaloa Cartel continues to
be the most powerful cartel in the country and controls
illicit networks and operations in the United States.
Despite the arrest of Joaquin “El Chapo” Guzman-Loera,
its narcotics business has continued uninterrupted. As
a result, there have been no significant changes within
the Sinaloa Cartel’s hierarchy, or any changes in the illicit operations conducted by the Sinaloa Cartel.
Border Patrol’s own experience with apprehensions between border crossings bears this out. In fiscal year
2018, there were over 26,000 apprehensions of illegal entrants attempting to enter the United States between
border crossings in the Yuma Sector. Also during fiscal year 2018, Border Patrol had over 1,400 separate
drug-related events between border crossings in the
Yuma Sector, through which it seized over 8,000 pounds
of marijuana, over 78 pounds of cocaine, over 102 pounds
of heroin, over 1,700 pounds of methamphetamine, and
over 6 pounds of fentanyl.
The replacement of ineffective pedestrian fencing in this
area is necessary because the older, wire mesh design is

86
easily breached and has been damaged to the extent that
it is ineffective. Additionally, this area is notorious for
border violence and narcotics smuggling. Furthermore, while the deployment of vehicle barrier in the
Yuma Sector initially curtailed the volume of illegal
cross-border vehicular traffic, transnational criminal organizations quickly adapted their tactics switching to
foot traffic, cutting the barrier, or simply driving over it
to smuggle their illicit cargo into the United States.
Thus, in order to respond to these changes in tactics,
DHS now requires pedestrian fencing.
The specific Project Areas are as follows:
•

•

Yuma Project 1:
o

The project begins approximately 1 mile
southeast of the Andrade Port of Entry
continuing along the Colorado River for approximately 5 miles in Yuma County.

o

Start coordinate: 32.704197, -114.726013;
End coordinate: 32.642102, -114.764632)

Yuma Project 2:
o

The project involves the replacement of two
segments of primary pedestrian fencing in
Yuma Sector for a total of approximately 6
miles.
This includes approximately 2
miles of fencing along the Colorado River.

o

Start coordinate: 32.37755528, -114.4268201;
End coordinate: 32.3579244, -114.3623999;

o

The project also includes replacement of
primary pedestrian fencing approximately
17 miles east of the San Luis Port of Entry,

87
on the Barry M Goldwater Range, continuing east for approximately 4 miles.
o
•

Start coordinate: 32.51419938, -114.8011175;
End coordinate: 32.49350559, -114.8116619

Yuma Project 3:
o

The project begins approximately 0.4 miles
east of the Barry M. Goldwater Range continuing approximately 31 miles east
through the Cabeza Prieta National Wildlife Refuge in Yuma County.

o

Start coordinate: 32.232935, -113.955211;
End coordinate: 32.039033, -113.33411

III.C. Tucson Sector

Within the United States Border Patrol Tucson Sector
(Tucson Sector) DHS is requesting that DoD assist by
undertaking road construction, by replacing approximately 86 miles of existing vehicle barrier with new pedestrian fencing, and by installing lighting in the specific
locations identified below. The specific areas identified
below are located in Pima, Cochise, and Santa Cruz Counties, Arizona.
Pima, Cochise and Santa Cruz Counties have been identified by the ONDCP as a HIDTA. The Sinaloa Cartel
relies on their local associates to coordinate, direct, and
support the smuggling of illegal drugs and aliens from
Mexico to the United States. Since Arizona is contiguous with the U.S.-Mexico International Boundary, the
Tucson and Phoenix metropolitan areas are major transshipment and distribution points for contraband smuggling. Plaza bosses operate as a Sinaloa Cartel leader
within their specific area of operation along the Sonora-

88
Arizona corridor of the U.S.-Mexico International Boundary.
Border Patrol’s own experience with apprehensions between border crossings bears this out. In fiscal year
2018, there were over 52,000 apprehensions of illegal entrants attempting enter the United States between the
border crossings in the Tucson Sector. Also in fiscal
year 2018 Border Patrol had over 1,900 separate drugrelated events between border crossings in the Tucson
Sector, through which it seized over 1,600 pounds of marijuana, over 52 pounds of cocaine, over 48 pounds of
heroin, over 902 pounds of methamphetamine, and over
11 pounds of fentanyl.
In addition, the absence of adequate pedestrian fencing,
either due to the presence of vehicle barrier only or ineffective pedestrian designs, in the Tucson sector continues to be particularly problematic as it pertains to the
trafficking of illegal narcotics. Rival transnational criminal organizations frequently employ “rip crews” who
leverage the remote desert environment and lack of infrastructure to steal one another’s illicit cargo resulting
in increased border violence.
The terrain also provides high ground to scouts seeking
to protect and warn smuggling loads being passed through
the area. Transnational criminal organizations have successfully utilized this advantage in furtherance of their
illicit activity and for this reason the area is in need of
an improved capability to impede and deny illegal crossings or people and narcotics. In addition, the area hosts
a number of tourist attractions that allow illegal activity
to blend into legitimate activity; avoiding detection and
evading interdiction.

89
The specific Project Areas are as follows:
•

•

•

Tucson Project 1:
o

The project includes replacement of two
segments of vehicle barriers. The first
segment begins approximately 2 miles west
of the Lukeville Port of Entry continuing
west approximately 30 miles.

o

Start coordinate: 32.038278, -113.331716;
End coordinate: 31.890032, -112.850162

o

The second segment project begins approximately 3 miles east of the Lukeville Port of
Entry and continues east approximately 8
miles in Pima County, Arizona.

o

Start coordinate: 31.8648, -112.76757; End
coordinate: 31.823911, -112.634298

Tucson Project 2:
o

The project includes approximately 5 miles
of primary pedestrian fence replacement
around the Lukeville Port of Entry extending from approximately 2 miles west of the
port to approximately 3 miles east of the
port.

o

Start coordinate: 31.88999921, -112.850162;
End coordinate: 31.8648, -112.76757

Tucson Project 3:
o

The project includes three segments of vehicle barrier replacement beginning approximately 18 miles west of the Naco Port
of Entry and continuing to approximately
25 miles east of the Douglas Port of Entry

90
(or approximately 5 miles west of the Arizona/
New Mexico state line) for approximately
20 miles of non-contiguous vehicle barrier
replacement in Cochise County, Arizona.

•

•

o

Start coordinate: 31.333754, -110.253863;
End coordinate: 31.333767, -110.250286;

o

Start coordinate: 31.334154, -110.152548;
End coordinate: 31.334137, -110.147464;

o

Start coordinate: 31.333995, -109.453305;
End coordinate: 31.332759, -109.129344

Tucson Project 4:
o

The project begins approximately 9 miles
east of the Nogales Port of Entry and continues eastward for approximately 30 miles with
approximately 26 miles of non-contiguous vehicle barrier replacement in Santa Cruz
and Cochise Counties, Arizona.

o

Start coordinate: 31.333578, -110.79579;
End coordinate: 31.333511, -110.775333;

o

start coordinate:
31.33328, -110.70545;
End coordinate: 31.333602, -110.288665)

o

Note: An additional approximately 0.3
miles of new pedestrian fence could be built
between the existing segmented vehicle
barrier locations to fill existing gaps if appropriate real estate interest can be verified

Tucson Project 5:
o

The project includes approximately 2 miles
of vehicle barrier replacement beginning

91
approximately 4.5 miles east of the Sasabe
Port of Entry continuing east in six noncontinuous segments for approximately 15
miles in Pima and Santa Cruz Counties, Arizona.

II.D.

o

Start Coordinate: 31.460175, -111.473171;
End Coordinate: 31.459673, -111.471584;

o

Start Coordinate: 31.453091, -111.450959;
End Coordinate: 31.449633, -111.440132;

o

Start Coordinate: 31.440683, -111.412054;
End Coordinate: 31.437351, -111.40168;

o

Start Coordinate: 31.423471, -111.358336;
End Coordinate: 31.422541, -111.355444;

o

Start Coordinate: 31.42221, -111.354379;
End Coordinate: 31.421321, -111.351608;

o

Start Coordinate: 31.386813, -111.243966;
End Coordinate: 31.385462, -111.239759)

El Paso Sector

Within the United States Border Patrol El Paso (El
Paso Sector) DHS is requesting that DoD assist by undertaking road construction, by replacing approximately 70 miles of existing vehicle barrier with new pedestrian fencing, and by installing lighting in the specific locations identified below. The specific areas identified below are located in Luna, Hidalgo and Doña Ana
Counties, New Mexico. Luna, Hidalgo and Doña Ana
Counties have been identified by the ONDCP as a
HIDTA.
There are three specific transnational criminal organizations of interest operating in the El Paso Sector—the

92
Sinaloa Cartel as well as remnants of the Juarez Cartel
and the Beltran Leyva Organization. In the El Paso
Sector the Sinaloa Cartel employs a variety of tactics,
techniques and procedures depending upon the terrain
and environment to move drugs across the border.
While the Sinaloa Cartel has a strong presence and control of territories at the flanks of the Sector, it does not
have full control of the territory throughout the El Paso
Sector. The Juarez Cartel, traditionally a major trafficker of marijuana and cocaine, has become an active
member in opium cultivation and heroin production.
Border Patrol’s own experience with apprehensions between border crossings bears this out. In fiscal year
2018, there were over 31,000 apprehensions of illegal entrants attempting to enter the United States between
border crossings in the El Paso Sector. Also in fiscal
year 2018, Border Patrol had over 700 separate drugrelated events between border crossings in the El Paso
Sector, through which it seized over 15,000 pounds of
marijuana, over 342 pounds of cocaine, over 40 pounds
of heroin, and over 200 pounds of methamphetamine.
Although the deployment of vehicle barrier in the El
Paso Sector initially curtailed the volume of illegal crossborder vehicular traffic, transnational criminal organizations quickly adapted their tactics switching to foot
traffic, cutting the barrier, or simply driving over it to
smuggle their illicit cargo into the United States.
Thus, in order to respond to these changes in tactics,
CBP now requires pedestrian fencing. Successfully
impeding and denying illegal activities or transnational
criminal organizations in this area is further complicated by the close proximity of New Mexico Highway 9
to the border. In some cases the highway is less than a

93
half a mile, allowing illegal cross-border traffic to evade
detection and apprehension and quickly vanish from the
border area.
The specific Project Areas are as follows:
•

•

El Paso Project 1:
o

The project includes 46 miles of vehicle barrier replacement beginning approximately
17.5 miles west of the Columbus Port of Entry continuing east in non-contiguous segments to approximately 35 miles east of the
Columbus Port of Entry within the Luna
and Doña Ana Counties, New Mexico.

o

Start Coordinate: 31.7837, -107.923151;
End Coordinate: 31.783689, -107.679049;

o

Start Coordinate: 31.783672, -107.573919;
End Coordinate: 31.783741, -107.038154

El Paso Project 2:
o

The project includes 23.51 miles of Vehicle
Barrier replacement in non­contiguous
segments within Hidalgo and Luna Counties, New Mexico.
The first segment
begin approximately 5.1 miles east of the
New Mexico/Arizona Border continuing
east 4.55 miles.

o

Start Coordinate: 31.332323, -108.962631;
End Coordinate: 31.332292, -108.885946;

o

The second segment begins approximately
3 miles west of the Antelope Wells Port of
Entry to 3 miles east of the port of entry for
6.12 miles of Vehicle Barrier replacement.

94

III.

o

Start Coordinate: 31.333368, -108.582412;
End Coordinate: 31.333407, -108.47926;

o

The third segment begins approximately 20
miles west of the Columbus Port of Entry
extending west 12.84 miles.

o

Start Coordinate: 31.783722, -108.182442;
End Coordinate: 31.783708, -107.963193;

Technical Specifications

As set forth above, DHS requires road construction, installation of lighting, and the replacement of existing vehicle barrier or dilapidated pedestrian fencing with new
pedestrian fencing within the Project Areas. DHS will
provide DoD with more precise technical specifications
as contract and project planning moves forward.
Given DHS’s experience and technical expertise, DHS
plans to coordinate closely with DoD throughout project
planning and execution, to include review and approval
of design specifications, barrier alignment and location,
and other aspects of project planning and execution.
IV.

Sequencing

The DHS request for assistance includes approximately
218 miles in which DHS requires road construction, the
installation of lighting, and the replacement of existing
vehicle fencing or dilapidated pedestrian fencing with
new pedestrian fencing within the Project Areas. DHS
requests that DoD’s support under 10 U.S.C. § 284 address the requirements in order of priority as DoD resources allow. The DHS order of priority is as follows:
1.

Yuma Sector Project 1

2.

Yuma Sector Project 2

95
3.

El Paso Sector Project 1

4.

El Centro Sector Project 1

5.

Tucson Sector Project 1

6.

Tucson Sector Project 2

7.

Tucson Sector Project 3

8.

Tucson Sector Project 4

9.

Yuma Sector Project 3

10. El Paso Sector Project 2
11. Tucson Sector Project 5
V.

Pending

DHS requests that DoD provide the above-referenced
border fences, roads, and lighting on a non-reimbursable
basis as support to block drug smuggling corridors.
DHS will accept custody of the completed infrastructure
and account for that infrastructure in its real property records.
DHS will operate and maintain the completed infrastructure.
VI.

Conclusion

DHS requests DoD assistance under 10 U.S.C. § 284 to
construct fences, roads, and to install lighting in order
to block drug smuggling corridors in the Project Areas
set forth above. The Projects Areas set forth above are
also areas of high illegal entry under IIRIRA
§ 102(a), and the requested fences, roads, and lighting
will assist in deterring illegal crossings in the Project
Areas.

96
SECRETARY OF DEFENSE
1000 DEFENSE PENTAGON
WASHINGTON, DC 20301-1000

[Mar. 25, 2019]
The Honorable Kirstjen Nielsen
Secretary of Homeland Security
Washington, DC 20528
Dear Madam Secretary:
Thank you for your February 25, 2019 request that
the Department of Defense provide support to your Department’s effort to secure the southern border by blocking up to 11 drug­smuggling corridors along the border
through the construction of roads and fences and the installation of lighting.
10 U.S.C. § 284(b)(7) gives the Department of Defense the authority to construct roads and fences and to
install lighting to block drug-smuggling corridors across
international boundaries of the United States in support
of counter-narcotic activities of Federal law enforcement agencies. For the following reasons, I have concluded that the support you request satisfies the statutory requirements:
• The Department of Homeland Security (DHS)/
Customs and Border Protection (CBP) is a Federal
law enforcement agency;
• DHS has identified each project area as a drugsmuggling corridor; and
• The work requested by DHS to block these identified drug smuggling corridors involves construction

97
of fences (including a linear ground detection system), construction of roads, and installation of lighting (supported by grid power and including imbedded
cameras).
Accordingly, at this time, I have decided to undertake
Yuma Sector Projects 1 and 2 and El Paso Sector Project I by constructing 57 miles of 18-foot-high pedestrian
fencing, constructing and improving roads, and installing
lighting as described in your February 25, 2019 request.
As the proponent of the requested action, CBP will
serve as the lead agency for environmental compliance
and will be responsible for providing all necessary access to land. I request that DHS place the highest priority on completing these actions for the projects identified above. DHS will accept custody of the completed
infrastructure, account for that infrastructure in its real
property records, and operate and maintain the completed infrastructure.
The Commander, U.S. Army Corps of Engineers, is
authorized to coordinate directly with DHS/CBP and
immediately begin planning and executing up to $1B in
support to DHS/CBP by undertaking the projects identified above.
Additional support may be available in the future,
subject to the availability of funds and other factors.
/s/

PATRICK M. SHANAHAN
PATRICK M. SHANAHAN
Acting

98
SECRETARY OF DEFENSE
1000 DEFENSE PENTAGON
WASHINGTON, DC 20301-1000

[Mar. 25, 2019]
MEMORANDUM FOR UNDER SECRETARY
OF DEFENSE (COMPTROLLER)/
CHIEF FINANCIAL OFFICER
SUBJECT:

Funding Construction in Support of the
Department of Homeland Security Pursuant to 10 U.S.C. § 284

On February 25, 2019 the Secretary of Homeland Security requested that the DoD provide support to the
Department of Homeland Security’s (DHS) effort to secure the southern border by blocking up to 11 drugsmuggling corridors along the border through the construction of roads and fences and the installation of
lighting. I have determined that the requirements of
title 10, U.S.C., section 284, have been satisfied. Accordingly, I have approved DoD support for Yuma Sector
Projects 1 and 2 and El Paso Sector Project 1 (DHS Priority Projects 1, 2, and 3) and have authorized up to $1B
in funding for the construction of 18-foot high pedestrian
fencing, the construction and improvement of roads, and
the installation of lighting to block drug­smuggling corridors along the southern border.
I have also decided that the Department will reprogram funds to provide the support described above.
This support will be funded through a transfer of $1B of
FY 2019 Army military personnel appropriations into
the “Drug Interdiction and Counter-Drug Activities,

99
Defense” appropriation. I am advised that this amount
is excess to the Army’s current programmatic needs
with respect to military personnel. You should undertake a reprogramming action to effectuate such transfer, as authorized by law.
The reprogramming action that I am directing satisfies the statutory requirements. I have determined
that a transfer of funds and authorizations of appropriations for the construction of fences and roads and the
installation of lighting to block drug-smuggling corridors is in the national interest. In an April 4, 2018 memorandum, “Securing the Southern Border of the United
States,” the President directed DoD to assist DHS in
stopping the flow of illegal drugs into the United States.
The reprogramming action is necessary to advance that
goal. I have also determined that the other requirements of Section 8005 of the DoD Appropriations Act,
2019, and Section 1001 of the John S. McCain National
Defense Authorization Act for FY 2019 are met as set
forth below:
• The items to be funded (Yuma Sector Projects 1
and 2 and El Paso Sector Project 1) are a higher priority than the item for which funds and authority are
transferred (excess Army military personnel funds)
because Yuma Sector Projects 1 and 2 and El Paso
Sector Project 1 are necessary in the national interest to prevent the flow of drugs into the United States
and the Army military personnel funds are excess to
need due to under­execution and lower-than-expected
end-strength.
• Support to law enforcement under Section 284
for the construction of fences and roads and the in-

100
stallation of lighting to block drug-smuggling corridors is a military requirement assigned by statute.
The need to provide support for Yuma Sector Projects 1 and 2 and El Paso Sector Project 1 was an unforeseen military requirement not known at the time
of the FY 2019 budget request.
• Support under Section 284 for construction of
roads and fences and the installation of lighting, including for Yuma Sector Projects 1 and 2 and El Paso
Sector Project 1, has not been denied by Congress.
The funds that will be used for this project are excess
to the need for which they were appropriated, and therefore, the use of such funds will not have a negative impact on joint force readiness. As such, I have determined
that providing the requested support for Yuma Sector
Projects 1 and 2 and El Paso Sector Project 1 will not
adversely affect the military preparedness of the United
States.
This $1B in funds will be allocated to the Department
of the Army with instructions to allocate it further to
the U.S. Army Corps of Engineers to undertake fence
and road construction and lighting installation for the
approved project.
No funds may be transferred or re-programmed
from the drug-demand-reduction program, the National
Guard counter-drug program, or the National Guard
counter-drug schools program in order to fund subsection 284(b)(7) support to DHS.
You will comply with all statutory requirements, but
will do so without regard to comity­based DoD policies
that prescribe prior approval from congressional committees.

101
My point of contact is Kenneth Rapuano, Assistant
Secretary of Defense for Homeland Defense and Global
Security.
/s/
cc:
Secretary of the Army

PATRICK M. SHANAHAN
PATRICK M. SHANAHAN
Acting

Chairman of the Joint Chiefs of Staff
Under Secretary of Defense for Policy
General Counsel of the Department of Defense
Assistant Secretary of Defense for Legislative Affairs
Assistant to the Secretary of Defense for Public Affairs
Commander, U.S. Army Corps of Engineers

102

Mar. 29, 2019
MEMORANDUM FOR: CAPT Hallock N. Mohler Jr.
Executive Secretary
Department of Defense
FROM:

Christina Bobb
/s/ CHRISTINA BOBB
Executive Secretary
Department of Homeland
Security

SUBJECT:

Modification Request: Section 284 funding for Border
Barrier Construction

REFERENCE:

(a) February 25, 2019, DHS
Request for Assistance
Pursuant to 10 U.S.C.
§ 284
(b) March 25, 2019, DoD Response to DHS Request
for Assistance Pursuant
to 10 U.S.C. § 284

Overview

The Department of Homeland Security (DHS) thanks
the Department of Defense for both the response and

103
approval of the use of Section 284 funding for the construction of border fencing and roads and the installation of lighting as characterized in the Request for Assistance. The completion of these projects will assist
CBP significantly in controlling the flow of migrants in
between the Ports of Entry (POE) on the Southwest
Border.
Clarifications

Prior to construction for border barrier projects, Customs and Border Protection (CBP) conducts an Alternatives Analysis (AA), which compares operational data
against the known and tested impedance value of barrier
and other related design attributes. The analysis examines key operational data points, including but not
limited to:
•

Vanishing time

•

Response time

•

Current staffing

•

Presence and effectiveness of existing technology
and infrastructure

•

Subject matter expertise of agents intimately familiar with operations in these areas.

Such analyses have often demonstrated that higher barriers and/or barriers augmented with anticlimb features
significantly increase the amount of time that migrants
require to reach a vanishing point. A more robust barrier solution (i.e. 30 foot steel bollard vice 18 foot steel
bollard and features), increases the vanishing time and
provides USBP agents with a greater ability to with vice
without anticlimb interdict migrants.

104
CBP undertook AAs for the proposed Section 284funded projects; two of these AAs have been completed,
with the following conclusions:
•

Sector Yuma Project 2: Requirement for 18 foot
steel bollard fencing with 5 foot anticlimb steel plate

•

Sector El Paso Project 1: Requirement for 30 foot
steel bollard fencing with 5 foot anticlimb steel plate

The AA for Sector Yuma Project 1, USBP’s highest priority project, is still underway, with results expected the
week of April 1st. Preliminary indications from the
analysis, however, indicate 30 foot bollard with anticlimb features is the likely requirement. DHS will
communicate to OSD the finalized requirements for Sector Yuma Project upon completion of the AA.
In light of the analyses summarized above, DHS requests that specifications for the Sector El Paso Project
1 be amended to 30ft bollard with anticlimb features,
and that DoD be prepared to likewise amend the specifications for Sector Yuma Project 1. DHS also requests DoD directly follow the prioritization set forth in
Reference (a) as closely as possible even if that means
completing partial projects.
Please direct any questions to Ntina K. Cooper, Deputy
Executive Director, Strategic Planning & Analysis,
USBP, CBP (202) 344-1417.

105
SECRETARY OF DEFENSE
1000 DEFENSE PENTAGON
WASHINGTON, DC 20301-1000

[Apr. 9, 2019]
MEMORANDUM FOR ACTING SECRETARY
OF HOMELAND SECURITY
SUBJECT:

Modification of Department of Defense
Support to Block Drug-Smuggling Corridors

Thank you for your April 5, 2019 request that the Department of Defense provide modified specifications on
projects approved for construction under 10 U.S.C.
§ 284 in order to support more effectively the Department of Homeland Security’s efforts to secure the southern border.
10 U.S.C. § 284(b)(7) authorizes the Department of
Defense to construct roads and fences, and to install
lighting, to block drug-smuggling corridors across international boundaries of the United States in support of
counter-narcotic activities of Federal law enforcement
agencies. For the following reasons, I have concluded
that this modified request continues to satisfy the statutory requirements:
•

The Department of Homeland Security (DHS)/
Customs and Border Protection (CBP) is a Federal law enforcement agency;

•

DHS has identified each project area as a drugsmuggling corridor; and

106
•

The work requested by DHS to block these identified drug-smuggling corridors involves construction of fences (including a linear ground detection system), construction of roads, and installation of lighting (supported by grid power
and including imbedded cameras).

Accordingly, I have approved construction of pedestrian fencing for Yuma Sector Projects 1 and El Paso
Sector Project 1 with 30-foot steel bollard with anticlimb plate, and Yuma Sector Project 2, with 18-foot
steel bollard with anti-climb plate, as requested in your
April 5, 2019 request. Road construction and improvements, and lighting installation, will be included as described in your February 25, 2019 request.
As the proponent of the requested action, CBP will
serve as the lead agency for environmental compliance
and will be responsible for providing all necessary access to land. I request that DHS place the highest priority on completing these actions for the projects identified above. DHS will accept custody of the completed
infrastructure, account for that infrastructure in its real
property records, and operate and maintain the completed infrastructure.
I have authorized the Commander, U.S. Army Corps
of Engineers, to coordinate directly with DHS/CBP and
immediately begin planning and executing support to
DHS/CBP by undertaking the projects identified above
in clearly defined segments to maximize the number of
miles of barrier projects within the available funds (up
to $1 billion).

107
Additional support may be provided in the future,
subject to the availability of funds, and other factors.
/s/

PATRICK M. SHANAHAN
PATRICK M. SHANAHAN
Acting

108
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
SAN FRANCISCO-OAKLAND DIVISION

No. 4:19-cv-00892-HSG
SIERRA CLUB AND SOUTHERN BORDER COMMUNITIES
COALITION, PLAINTIFFS
v.
DONALD J. TRUMP, PRESIDENT OF THE UNITED
STATES, IN HIS OFFICIAL CAPACITY; PATRICK M.
SHANAHAN, ACTING SECRETARY OF DEFENSE,
IN HIS OFFICIAL CAPACITY; KIRSTJEN M. NIELSEN,
SECRETARY OF HOMELAND SECURITY, IN HER OFFICIAL
CAPACITY; AND STEVEN MNUCHIN, SECRETARY OF THE
TREASURY, IN HIS OFFICIAL CAPACITY, DEFENDANTS
DECLARATION OF RALPH HUDSON

I, Ralph Hudson, declare as follows:
1. My name is Ralph Hudson. I am over 18 years
old. The information in this declaration is based on my
personal experience and my review of publicly available information. If called as a witness, I could and
would testify competently to these facts. Any opinions contained in this declaration reflect my personal
opinion and judgement.
2. My primary address is 427 Stone Road, Gilmanton Iron Works, New Hampshire 03837. However, I
have owned property in Ajo, Arizona for almost two
decades and I am a member of Sierra Club’s Grand
Canyon Chapter in Southern Arizona.

109
3. I support the Sierra Club’s mission and goals to
encourage the public to explore, enjoy, and protect
the wild places of the earth; to practice and promote
the responsible use of the earth’s ecosystems and resources; to educate and enlist humanity to protect
and restore the quality of the natural and human environment; and to use all lawful means to carry out
these objectives.
4. I am a current member of Sierra Club and first
joined in 2012.
5. I have been recreating in the wilderness areas
along the U.S.-Mexico border in what U.S. Customs
and Border Protection (CBP) refers to as the Tucson
Sector for over 20 years. My love of this unique desert ecosystem led me to build my house in Ajo back
in 2001. I use the lands close to the border in the
Cabeza Prieta Wildlife Refuge and Organ Pipe Cactus National Monument to hike, take photos, and explore the natural history. I have been traveling to
the areas in and around the proposed Tucson Projects 1 and 2 since 1997. I travel to these areas several times each year, sometimes for a week at a time.
6. Access to the Cabeza Prieta Wildlife Refuge,
near the border, is along the El Camino del Diablo.
Its proximity to the border makes hiking right to the
current barrier possible. On foot you feel extremely
connected with nature and I can hardly imagine the
juxtaposition of this high border wall with the desert
landscape. I have wonderful memories and photographs of the original border obelisks which served
as the only demarcation of the border until about 10
years ago. It looks to me like little has changed

110
along the border in these wild places in terms of human traffic. Away from a few well known crossing
spots it has remained the same. These wild places
are empty of people despite recent rhetoric about
waves of migrants crossing the border.
7. I love hiking, camping, and taking photos in this
remote wilderness. I cannot fathom seeing an 18 to
30 foot barrier when I focus my camera on Kino peak
or seeing a tall barrier strung out behind Monument
Bluff just south of the El Camino on the Cabeza Prieta
NWR. These are special places which fulfill the Wilderness Act’s goal of being places “untouched by the
hand of man.”
8. Over the past few years, I have also enjoyed visiting Quitobaquito Springs. This UNESCO World
Heritage Site is less than a half mile from the U.S.Mexico Border. Because of its proximity to the border you can even see traffic along Mexico’s Route 2.
As a water source within this desert ecosystem, Quitobaquito Springs is extremely important to wildlife
in the area. The replacement of penetrable vehicle
barriers with pedestrian fencing will have a tremendous impact on the species that rely on this water
source.
9. The current barrier is bad enough but, for the
most part, it does allow desert animals to wander
through this landscape as they always have. I am
distressed that this may no longer happen and I fear
that fragmenting their habitat may have unimaginable impacts. I have seen coyotes, javelina, bighorn
sheep, pronghorn, and various reptiles in my Cabeza
travels.

111
10. One of my favorite aspects of camping in these
areas along the border is my ability to see the stars.
There is very little light pollution in these areas, however, the proposed border construction will drastically change this reality. I have always been able to
come out here and look up at the sky and see the
Milky Way. If these projects move forward, the
lighting will drastically impact my ability to stargaze
in this beautiful border region.
11. I plan to continue returning to these unique
landscapes along the border as long as I am able, but
I am extremely concerned that Tucson Projects 1 and
2 will greatly detract from my ability to enjoy hiking,
camping, and photographing these landscapes. The
physical barrier alone is a blight on this landscape.
12. I am aware that President Trump declared a national emergency on February 15, 2019 in order to
construct a wall along the U.S.-Mexico border. It is
my understanding that the Secretary of Defense has
recently authorized funding for Projects 1 and 2 in
the Tucson Sector. I am concerned that the border
wall and its construction will adversely impact the expansive area around and including Cabeza Prieta
Wildlife Refuge and Organ Pipe Cactus National
Monument, its ecosystems, and the many people like
me who recreate in these places.
13. For all of these reasons, the proposed border
wall in Tucson Sector Project 3 will injure me recreationally, aesthetically, and morally. An order halting the wall’s construction would remedy those injuries.

112
I hereby declare under penalty of perjury pursuant to
the laws of the United States that the above is true and
correct to the best of my knowledge.
Dated: May 26, 2019
/s/

RALPH HUDSON
RALPH HUDSON

113
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
SAN FRANCISCO-OAKLAND DIVISION

No. 4:19-cv-00892-HSG
SIERRA CLUB AND SOUTHERN BORDER COMMUNITIES
COALITION, PLAINTIFFS
v.
DONALD J. TRUMP, PRESIDENT OF THE UNITED
STATES, IN HIS OFFICIAL CAPACITY; PATRICK M.
SHANAHAN, ACTING SECRETARY OF DEFENSE,
IN HIS OFFICIAL CAPACITY; KIRSTJEN M. NIELSEN,
SECRETARY OF HOMELAND SECURITY, IN HER OFFICIAL
CAPACITY; AND STEVEN MNUCHIN, SECRETARY OF THE
TREASURY, IN HIS OFFICIAL CAPACITY, DEFENDANTS
DECLARATION OF BILL BROYLES

My name is Bill Broyles, and I declare:
1. I reside in Tucson, Arizona, north of the border
between the United States and Mexico. I also own land
near Ajo, Arizona, near the Organ Pipe Cactus National
Monument and the Cabeza Prieta National Wildlife Refuge.
2.
1989.

I have been a member of the Sierra Club since

3. I regularly spend time in the vicinity of the proposed Tucson Section Projects 1 (extending northwest
and southeast from Lukeville, Arizona) and 2 (extending
through Lukeville), and intend to continue to do so in the
future. Those portions of the border are flanked by
large federal reserves that protect wildlife, habitat, and

114
which provide extraordinary opportunities for wildernessbased recreation. Those areas include Organ Pipe Cactus National Monument, the Cabeza Prieta National
Wildlife Refuge, and the Goldwater Range. Similar reserves lie along the Mexican side of the border: El Pinacate and Gran Desierto Biosphere Reserve (recently
designated a UNESCO World Heritage Site) and El
Alto Golfo and Rio Colorado Delta Biosphere Reserve.
4. For the past 50 years, I have hiked, camped, vacationed, and traveled through the above-described areas, studying and observing the region’s human- and
natural history. I have traversed thousands of miles,
and spent hundreds of days and nights, in these areas.
I continue to visit these areas four to six times a year.
5. As a volunteer with the Cabeza Prieta National
Wildlife Refuge, I have worked several thousand hours
counting desert bighorn, surveying desert waterholes,
measuring rainfall, and removing trash from the Refuge
6. I have written and edited books and articles on
the area, including: Organ Pipe Cactus National Monument, Our Sonoran Desert, Dry Borders, Sunshot, Last
Water on the Devil’s Highway, Desert Duty: On the
Line with the U.S. Border Patrol, Cowboys and Cowgirls Around Ajo Arizona, and Field Man.
7. My study and travels through these borderlands
are critically enhanced by the presence of a wide array
of species—some of which are endangered—within them.
Some of those species, such as Sonoran Pronghorn and
Desert Bighorn, use and require habitat that spans the
border and have historically moved throughout northwestern Sonoran and southwestern Arizona. I understand that the construction of walls that such species

115
cannot cross harms such species, by inhibiting their access to parts of their habitat, and increasing human disturbances in the area.
8. My enjoyment of these areas will also be damaged by the incessant lighting associated with the wall
and its construction, which, I understand, will disrupt
night flights of migrating birds, and mar my and others’
view of the night skies—a central attraction of Organ
Pipe Cactus National Monument and other public lands
in the area.
9. The widening of roads necessary to enable construction of these wall segments, along with the noise
and dust associated with construction, will disturb that
natural quiet of the area for many months, displacing
wildlife from areas near the wall, exacerbating soil erosion, and substantially diminishing my and others’ pleasure in experiencing the area.
10. At a more fundamental level, the proposed barrier construction will blight a landscape whose core attractions include unimpeded views across the border (of,
for example, the volcanic cones and peaks of Mexico’s
Pinacate Biosphere Reserve), solitude and quiet, and
the shared heritage, history, and culture of our two bordering nations. The wall diminishes each of those basic
values, thereby irrevocably altering my and others’ experience of the borderlands.
11. I am concerned by the absence of any environmental review of these projects. Such review, and an
opportunity for public comment, would allow the community (including me) to better inform the agencies’ decision, and, at a minimum, would permit the agencies to

116
identify less intrusive means of pursuing their goals, or
of mitigating the impacts of their actions.
12. For all of these reasons, the proposed wall construction will injure me professionally, aesthetically, recreationally, and morally. An order halting the wall’s
construction would remedy those injuries.
I hereby declare under penalty of perjury pursuant
to the laws of the United States that the above is true
and correct to the best of my knowledge.
Dated: May 23, 2019
/s/

BILL BROYLES
BILL BROYLES

117
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
SAN FRANCISCO-OAKLAND DIVISION

No. 4:19-cv-00892-HSG
SIERRA CLUB AND SOUTHERN BORDER COMMUNITIES
COALITION, PLAINTIFFS
v.
DONALD J. TRUMP, PRESIDENT OF THE UNITED
STATES, IN HIS OFFICIAL CAPACITY; PATRICK M.
SHANAHAN, ACTING SECRETARY OF DEFENSE,
IN HIS OFFICIAL CAPACITY; KIRSTJEN M. NIELSEN,
SECRETARY OF HOMELAND SECURITY, IN HER OFFICIAL
CAPACITY; AND STEVEN MNUCHIN, SECRETARY OF THE
TREASURY, IN HIS OFFICIAL CAPACITY, DEFENDANTS
DECLARATION OF PATRICIA GERRODETTE

My name is Patricia Gerrodette, and I declare:
1.

I am over 18 years old. The information in this declaration is based on my personal experience and my
review of publicly available information. If called
as a witness, I could and would testify competently
to these facts. Any opinions contained in this declaration reflect my personal opinion and judgment.

2.

My primary residence is 3327 Eagle Ridge Drive,
Sierra Vista AZ, 85650. I have lived in Sierra Vista
since 1995.

3.

I am an active member of the Sierra Club, Grand
Canyon Chapter. I’ve been a member since 1984.
I am currently a volunteer with the Sierra Club
Grand Canyon Chapter’s Water Sentinels Program,

118
a volunteer group that monitors the flow of Arizona’s San Pedro River and tests its water quality,
and have been a member of the program since it began in Arizona in 2010.
4.

Throughout my time in Sierra Vista, I have become
closely connected to the San Pedro River and the
San Bernardino National Wildlife Refuge, both of
which fall within Tucson Sector Project 3.

5.

Within a few months of arriving in Sierra Vista, I
started connecting with people in my community
who, like me, value and appreciate the natural world.
I quickly became educated about the San Pedro
River and the surrounding watershed, and I started
to explore and recreate along the river. As an activist on San Pedro River issues, I spend a lot of my
free time working to protect the San Pedro River
and the watershed that supports it, including the desert washes that originate in the Huachuca Mountains and the groundwater aquifer that keeps the
San Pedro River flowing all year round. My efforts
to protect the San Pedro River have included participation for the last 19 years in the Upper San
Pedro Partnership, a collection of 21 federal and
state agencies and some private entities working to
ensure that the long-term water needs of the Sierra
Vista Subwatershed are met.

6.

I bought my current house three years after moving
to Sierra Vista. My house is just a fifteen to twenty
minute drive to the San Pedro River, which allows
me to regularly travel to the river. I enjoy walking
along its trails, identifying native plants, birdwatching, and observing wildlife. In my time along the
river, I have seen many neotropical migrant birds,

119
which use the San Pedro River’s riparian habitat as
a migratory stop-over site, as well as Mexican specialty birds like Gray Hawks that come to the river
to breed in the summertime. I have also seen the
western Yellow-billed Cuckoo, which is a listed species under the Endangered Species Act. When
friends come to town to visit, I often take them to
the San Pedro River, because it is a jewel in our
community. These days, I travel to the San Pedro
River about once a month to visit, walk with friends,
exercise, and observe the wildlife and vegetation
that rely on the river.
7.

The proposed border wall at the San Pedro River
touches directly on the work that I’ve been doing for
the past 24 years and is deeply upsetting to me. I
am concerned about what the wall will do to the flow
of the river. I don’t see how this wall will be any
different than walls that have failed along the border in the past. Experience with other sections of
the border wall suggest that the wall will cause debris to accumulate in the river; in the worst case, it
may cause the border wall to blow out as it did in
Lukeville and Nogales. I also worry that the border wall and its construction will harm the plant and
animal species living along and migrating through
the San Pedro River ecosystem.

8.

As I’ve mentioned, I regularly visit the San Pedro
River. However, if construction moves forward, it
will deter me from visiting as often as I once did. I
will avoid the noise, dust, and unsightliness of a construction zone in a place I love so dearly for its natural beauty.

120
9.

I am also deeply worried by the proposal along the
San Bernardino National Wildlife Refuge. While
construction itself is hugely disruptive, it is the proposed permanence of an impenetrable barrier that
I find most distressing. The wall will prevent wildlife from crossing, thereby disrupting natural migration patterns. Such disregard for the needs of
other life is very upsetting to me.

10. I am aware that President Trump declared a national emergency on February 15, 2019 in order to
construct a wall along the U.S.-Mexico border. It
is my understanding that the Secretary of Defense
has recently authorized funding, and imminently
plans to construct, Tucson Project 3. I am concerned that the border wall and its construction will
destroy the natural beauty and ecosystems of the
San Pedro River and the San Bernardino Wildlife
Refuge as well as my ability to enjoy these places.
11. For all of these reasons, the proposed border wall in
Tucson Sector Project 3 will injure me recreationally, aesthetically, spiritually, and morally. An order halting the wall’s construction would remedy
those injuries.
I hereby declare under penalty of perjury pursuant to
the laws of the United States that the above is true and
correct to the best of my knowledge.
Dated: May 27, 2019
/s/

PATRICIA GERRODETTE
PATRICIA GERRODETTE

121
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
SAN FRANCISCO-OAKLAND DIVISION

No. 4:19-cv-00892-HSG
SIERRA CLUB AND SOUTHERN BORDER COMMUNITIES
COALITION, PLAINTIFFS
v.
DONALD J. TRUMP, PRESIDENT OF THE UNITED
STATES, IN HIS OFFICIAL CAPACITY; PATRICK M.
SHANAHAN, ACTING SECRETARY OF DEFENSE,
IN HIS OFFICIAL CAPACITY; KIRSTJEN M. NIELSEN,
SECRETARY OF HOMELAND SECURITY, IN HER OFFICIAL
CAPACITY; AND STEVEN MNUCHIN, SECRETARY OF THE
TREASURY, IN HIS OFFICIAL CAPACITY, DEFENDANTS
DECLARATION OF MARGARET CASE

My name is Margaret F. Case. The information in
this declaration is true and correct, based on my experience, and my review of publicly available information:
1. I am a member of the Sierra Club, and have been
since 1990. My interest in the natural areas of southeast Arizona, and my concern for those areas, led me to
join the Sierra Club’s Borderlands Team.
2. I reside in the rural area know as Palominas, in
southern Cochise County, Arizona. I have lived in the
area for over 11 years. As the crow flies, my home is
approximately four miles from the San Pedro River, and
approximately 5 miles from a wall segment that runs
along the United States-Mexico border. The border
wall and the foliage corridor along the San Pedro River

122
are visible from my house’s patios. The Coronado Memorial is a short drive from my home—approximately
ten minutes. The San Bernardino Wildlife Refuge is
also in our county, to the east of my house.
3. I understand that the Tucson Section Project 3
involves the construction and replacement of border
wall sections that include the San Pedro River, the San
Bernardino Wildlife Refuge, and areas south of the
Coronado Memorial.
4. I use and enjoy the areas affected by the border
wall—from my home, and on excursions with friends and
visitors. Indeed, my husband and I spent our first
Christmas Day in Arizona visiting the Slaughter Ranch
and the San Bernardino National Wildlife Refuge. We
are both birders; on that first trip, on a track running
parallel to the Normandy-style ‘vehicle barriers’ currently along the border, we saw our first Black Phoebe.
5. The border areas and their natural beauty have
been a central element of my life here since we moved to
Arizona from Kentucky. Shortly after arriving, I went
on an overnight Sierra Club outing along the border.
My goal was to learn about the southeast borderlands
area, which I intended to be my home for the rest of my
life. That trip took us to the Buenos Aires National
Wildlife Refuge, the San Pedro Riparian National Conservation Area, and to the Coronado National Memorial.
6. Since then, I have grown more familiar with the
landscapes of southeast Arizona. I continue to regularly visit the San Pedro River. I saw my first Gray
Hawk at the San Pedro Riparian National Conservation
Area. My husband and I have an annual tradition of
hiking at the San Pedro House (in that Conservation

123
Area) on Thanksgiving Day. When friends and family
visit, we routinely take them to the Coronado National
Memorial; we, along with them, are always dazzled by
the sweeping vistas of the continuous landscape shared
by the United States and Mexico.
7. My pleasure in living along the border is immensely enhanced by my knowledge that there are wolves,
bears, ocelots, and even jaguars that inhabit those lands,
prowling in secret and filling crucial, and unique, ecological niches. Just a few days ago, on a trip into nearby
New Mexico, my husband and I spotted a wolf standing
in the brush. I never thought I might see a wolf. Doing so was the thrill of a lifetime, and one that deepened
my appreciation of the presence of such wildlife in my
own backyard neighborhood, as well as my concern that
border-wall construction will inhibit the mobility upon
which those species depend.
8. The construction and expansion of the border
wall, both as the construction proceeds and in the hard
infrastructure that it will produce, will diminish the values that caused me to choose these borderlands as my
home.
9. I understand that the proposed ‘pedestrian’ barriers will impose significant, often impassable, barriers
to the wildlife that currently inhabit areas on both sides
of the border. Near my home, wildlife such as deer and
javelina have been photographed, in apparent consternation, unable to cross such barriers. I personally have
heard the frustration of a neighbor—a long-time
rancher—whose property is bounded by the border wall
and road for many miles. His family has ranched that
land for three generations. He describes a sharp drop
in the deer population, as border barriers increase.

124
These and other similar stories suggest to me that the
decrease in observable wildlife in my own property may
be due to border enforcement activities; I find the notion
of increasing the structures and human activities that
interrupt the flows of wildlife, and water, painful, almost
viscerally so.
10. I am also concerned that increased human activity along the border, and more substantial border walls
and infrastructure, will affect the diverse bird life that
provides one of the greatest pleasures of my current
home. A higher, less permeable wall will impair the
visibility that makes the border such an enticing birdwatching area. Many birds depend upon rabbits and
other prey species that are likely to be disrupted by construction activities, and whose habitat will be fragmented by the wall; and their own nesting habitat, especially along the rivers, is likely to be adversely affected.
Birds that frequent this area depend upon a delicately
balanced habitat, which exists in only a few places around
the world; disrupting the habitat of these birds disrupts
and diminishes my own life.
11. I have read articles documenting the manner in
which border-wall construction disrupts delicate ecosystems, adding sediment to rivers and streams, adding vehicular traffic and other human activity, contributing
light pollution, and inhibiting wildlife corridors. And I
have personally seen how the Department of Homeland
Security’s border walls, roads, and traffic have diminished the beauty and serenity of the border region
where I live.
12. At night, from my house, I can watch the lights
of Border Patrol vehicles on the roads that the agency
has built in previously roadless areas. In our part of

125
the world, dark night skies are a pride and joy; law enforcement lighting, which I understand will be exacerbated by the proposed project, is an intrusive nuisance
and decreases my enjoyment of the area. I am additionally worried about nocturnal animals, whose activities and habitat are disrupted by night-time lights and
activity.
13. With each increase and escalation in enforcement along the border, my and other border residents’
quality of life decreases. I once enjoyed taking visiting
friends and family to the actual border; as access roads
have been closed, such trips have become very difficult.
Law enforcement activities which claim to limit northbound human migration are in fact limiting my own freedom and mobility, and my ability to show visitors where
I live, and what I enjoy. The proposed wall will, moreover, extend an already unwanted eyesore in the middle
of a landscape whose beauty I treasure, irrevocably harming my enjoyment of that landscape.
14. I am greatly concerned about the federal agencies’ refusal to comply with environmental statutes that
Congress passed to protect natural and cultural resources. I chose to live the rest of my life in this area;
when deciding to do so, I relied upon those legal protections to protect the lands around my home, never dreaming that they would be rendered impotent with the
stroke of a pen.
15. For all of those reasons, the proposed Tucson
border wall project will cause me and my family irreparable harm. An order preventing the wall’s construction would remedy that harm.

126
I hereby declare under penalty of perjury pursuant
to the laws of the United States that the above is true
and correct to the best of my knowledge.
Dated: May 24, 2019
/s/

MARGARET F. CASE
MARGARET CASE

127

128
PROTECTING AMERICANS WHILE ENHANCING
LEGAL IMMIGRATION

Since taking office, the President has made clear that
he would restore order and integrity to the U.S. immigration system. There are three primary efforts underlying this goal: strengthening border security; ensuring enforcement of immigration laws; and reforming
the legal immigration system, while recognizing that legal immigration is an important driver of a thriving
economy. The Budget requests more than $28.2 billion
for the agencies that have primary responsibility for carrying out immigration programs at DHS and the Department of Justice (DOJ). This includes funding for
U.S. Customs and Border Protection (CBP), U.S. Immigration and Customs Enforcement (ICE), and U.S. Citizenship and Immigration Services within DHS, and the
Executive Office for Immigration Review (EOIR) within
DOJ.
Within the Administration’s proposal for $18 billion
to fund the border wall, the Budget invests $1.6 billion
to support CBP efforts to gain operational control of the
Southwest border. Until the porous borders are closed
to the criminals, terrorists, and gang members that exploit it, America remains at risk. Furthermore, since
most of the illegal drugs that enter the United States
come through the Southwest border, a border wall is
critical to combating the scourge of drug addiction that
leads to thousands of unnecessary deaths. The border
wall would stop smugglers in their tracks and help make
America safe.
The Budget also requests $211 million for 750 additional Border Patrol agents in 2019, continuing the President’s commitment to increase the ranks of the Border

129
Patrol by 5,000 new agents. Funding would be used to
recruit, hire, and train new agents, and for staff to support the men and women on the front line of America’s
border defenses. These new personnel would supplement investments in the border wall by guarding the
border and apprehending and swiftly removing illegal
aliens at the border.
The Budget furthers investment in CBP technology
and targeting systems such as the National Targeting
Center (NTC) and the Biometric Entry-Exit System.
The Budget requests a total of $253 million for NTC, an
increase of $79 million, for its overall mission, including
the background vetting of individuals seeking to enter
the United States before they arrive. These programs
would enable the Government to better identify terrorists and other criminals and prevent their entry into the
United States. Completion of the long-required Biometric Entry-Exit System would increase law enforcement’s ability to identify and remove those who overstay
their visas. Future investments in enhanced vetting
and targeting programs would further the Administration’s goal of shifting such costs to visa and immigration
applicants while continuing to facilitate legitimate travel
to the United States.
The Budget makes major investments in immigration
law enforcement in the interior of the Nation, focusing
on efforts to identify, arrest, prosecute, and remove illegal aliens. Within ICE, the Budget proposes $571 million to hire and support 2,000 new officers and agents,
which directly supports the President’s order for ICE to
arrest all illegal aliens it encounters. Since the President’s inauguration, ICE arrests have increased by 42
percent and the Agency has increased requests to local

130
law enforcement to transfer custody of illegal aliens to
ICE by 81 percent during the same time period in the
previous fiscal year.
As ICE increases its arrests and deportations of illegal aliens, it also requires additional detention and removal capacity. The Budget requests more than $2.5
billion for these critical law enforcement functions, funding an average daily detention capacity of 47,000 illegal
aliens in facilities across the United States. To ensure
immigration cases are heard expeditiously, the Budget
also requests an increase of $40 million for 75 new immigration judge teams at EOIR and nearly $40 million for
338 new prosecuting attorneys at ICE. These investments are critical to the prompt resolution of newlybrought immigration charges and to reduce the 650,000
backlog of cases currently pending in the immigration
courts.

131
[SEAL OMITTED]
EXECUTIVE OFFICE OF THE PRESIDENT
OFFICE OF MANAGEMENT AND BUDGET
WASHINGTON, D.C. 20503
Jan. 6. 2019
The Honorable Richard Shelby
Chairman
Committee on Appropriations
United States Senate
Washington, DC 20510
Dear Mr. Chairman:
The President continues to stress the need to pass
legislation that will both reopen the Federal Government and address the security and humanitarian crisis
at our Nation’s Southwest border. The Administration
has previously transmitted budget proposals that would
support his ongoing commitment to dramatically reduce
the entry of illegal immigrants, criminals, and drugs; keep
out terrorists, public safety threats, and those otherwise
inadmissible under U.S. law; and ensure that those who
do enter without legal permission can be promptly and
safely returned home.
Appropriations bills for fiscal year (FY) 2019 that
have already been considered by the current and previous Congresses are inadequate to fully address these
critical issues. Any agreement for the current year
should satisfy the following priorities:
–

Border Wall, Customs and Border Protection
(CBP): The President requests $5.7 billion for

132
construction of a steel barrier for the Southwest
border. Central to any strategy to achieve operational control along the southern border is physical infrastructure to provide requisite impedance
and denial. In short, a physical barrier—wall—
creates an enduring capability that helps field
personnel stop, slow down and/or contain illegal
entries. In concert with the U.S. Army Corps of
Engineers, CBP has increased its capacity to execute these funds. The Administration’s full request would fund construction of a total of approximately 234 miles of new physical barrier and fully
fund the top 10 priorities in CBP’s Border Security Improvement Plan. This would require an
increase of $4.1 billion over the FY 2019 funding
level in the Senate version of the bill.

–

Immigration Judge Teams—Executive Office for
Immigration Review (EOIR): The President
requests at least $563 million for 75 additional Immigration Judges and support staff to reduce the
backlog of pending immigration cases. The Administration appreciates that the Senate’s FY
2019 bill provides this level of funding, and looks
forward to working with the Congress on further
increases in this area to facilitate an expansion of
in-country processing of asylum claims.

–

Law Enforcement Personnel, Border Patrol Agent
Hiring, CBP: The President requests $211 million to hire 750 additional Border Patrol Agents
in support of his promise to keep our borders safe
and secure. While the Senate’s FY 2019 bill supports some Border Patrol Agent hiring, fulfilling
this request requires an increase of $100 million

133
over the FY 2019 funding level in the Senate version of the bill.

–

Law Enforcement Personnel, Immigration and
Customs Enforcement (ICE): The President requests $571 million for 2,000 additional law enforcement personnel, as well as support staff, who
enforce our U.S. immigration laws and help address gang violence, smuggling and trafficking,
and the spread of drugs in our communities.
This would require an increase of $571 million over
the FY 2019 funding level in the Senate version of
the bill.

–

Detention Beds, ICE: The President requests
$4.2 billion to support 52,000 detention beds.
Given that in recent months, the number of people
attempting to cross the border illegally has risen
to 2,000 per day, providing additional resources
for detention and transportation is essential.
This would require an increase of $798 million over
the FY 2019 funding level in the Senate version of
the bill.

–

Humanitarian Needs:

The President requests
an additional $800 million to address urgent humanitarian needs. This includes additional fund-

ing for enhanced medical support, transportation,
consumable supplies appropriate for the population, and additional temporary facilities for processing and short-term custody of this vulnerable
population, which are necessary to ensure the
well-being of those taken into custody.

134
–

Counter-narcotics/weapons Technology:
Beyond these specific budgetary requests, the Administration looks forward to working with Congress to provide resources in other areas to address the unprecedented challenges we face along
the Southwest border. Specifically, $675 million
would provide Non-Intrusive Inspection (NII) technology at inbound lanes at U.S. Southwest Border
Land Ports of Entry (LPOE) would allow CBP to
deter and detect more contraband, including narcotics, weapons, and other materials that pose nuclear and radiological threats. This would require an increase of $631 million over the FY 2019
funding level in the Senate version of the bill.

In addition, to address the humanitarian crisis of unaccompanied alien children (UACs), Democrats have proposed in-country asylum processing for Central American
Minors. This would require a statutory change, along
with reallocation of State Department funds to establish
in-country processing capacities at Northern Triangle
consulates and embassies. Furthermore, for the new
procedure to achieve the desired humanitarian result, a
further corresponding statutory change would be required to ensure that those who circumvent the process
and come to the United States without authorization can
be promptly returned home. Without the latter change,
in-country processing will not reduce the unauthorized
flow or successfully mitigate the humanitarian crisis.”
These upfront investments in physical barriers and
technology, as well as legislation to close loopholes in
our immigration system, will reduce illegal immigration,
the flow of illicit drugs entering our country and reduce

135
the long term costs for border and immigration enforcement activities.
The Administration looks forward to advancing these
critical priorities as part of legislation to reopen the
Government.
Sincerely,
/s/

RUSSELL T. VOUGHT
RUSSELL T. VOUGHT
Acting Director

136

I will never waver from my sacred duty to defend this Nation and its people. We will get the job done.
President Donald J. Trump
SECURING OUR BORDER: President Donald J. Trump
is following through on his promise to secure the border
with legislation and Executive action.

•

President Trump was elected partly on his promise
to secure the Southern Border with a barrier and,
since his first day in office, he has been following
through on that promise.

•

As the President has said, sections of the border
wall are already being built, and legislation and Executive actions are building on that progress.

•

Executive action being taken by the President makes
available additional funding to secure our border
that is essential to our national security.

137
LEGISLATIVE WINS:
President Trump secured a
number of significant legislative victories in the Homeland Security appropriations bill that further his effort to
secure the Southern Border and protect our country.

•

The funding bill contains robust resources and additional provisions to secure the border and strengthen immigration enforcement.

•

The bill provides $1.375 billion for approximately 55
miles of border barrier in highly dangerous and
drug smuggling areas in the Rio Grande Valley,
where it is desperately needed.
• More than 40 percent of all border apprehensions occurred in the Rio Grande Valley sector
in fiscal year (FY) 2018.
• The Rio Grande Valley was the border sector
with the most known deaths of illegal border
crossers in FY 2018.

•

$415 million will go toward addressing the humanitarian crisis at the border by providing medical care,
transportation, processing centers, and consumables.

•

President Trump successfully rejected efforts by
some to undercut Immigration and Customs Enforcement’s (ICE) ability to uphold our laws and detain illegal aliens, including criminals.
• ICE funding supports nearly 5,000 additional
beds to detain illegal aliens and keep criminals
off our streets.

•

Customs and Border Protection will receive funding
for 600 additional officers.

138
•

This bill will help keep deadly drugs out of our communities by increasing drug detection at ports of entry, including opioid detection staffing, labs, and
equipment.

A PROMISE TO ACT: President Trump is taking Executive action to ensure we stop the national security and
humanitarian crisis at our Southern Border.

•

President Trump is using his legal authority to take
Executive action to secure additional resources, just
as he promised. In part, he is declaring a national
emergency that makes available additional troops
and funding for military construction.

•

Including funding in Homeland Security appropriations, the Administration has so far identified up to
$8.1 billion that will be available to build the border
wall once a national emergency is declared and additional funds have been reprogrammed, including:
• About $601 million from the Treasury Forfeiture
Fund
• Up to $2.5 billion under the Department of Defense funds transferred for Support for Counterdrug Activities (Title 10 United States Code,
section 284)
• Up to $3.6 billion reallocated from Department
of Defense military construction projects under
the President’s declaration of a national emergency (Title 10 United States Code, section
2808)

•

These funding sources will be used sequentially and
as needed.

139
•

The Department of Homeland Security, Department
of Defense, and the Army Corps of Engineers are
working to create a prioritized list of segments and
a work plan for the remainder of FY 2019 and beyond.
• New projects could include: new levee wall, new
and replacement primary pedestrian barrier, new
vehicle-to-pedestrian barrier, and new secondary barrier.

NATIONAL EMERGENCY ON OUR BORDER: The
President is using his clear authority to declare a national emergency as allowed under the National Emergencies Act.

•

Since 1976, presidents have declared nearly 60 national emergencies.
• Most of the previously declared national emergencies have been continually renewed and are
still in effect, after being continually renewed.

•

Multiple Governors have declared states of emergency along the border in the past.
• Former Arizona Governor Janet Napolitano,
who became President Obama’s DHS Secretary,
declared a state of emergency along the border
in 2005.
• Former New Mexico Governor Bill Richardson
also declared a state of emergency at the border
in 2005.

•

Former President George W. Bush and former
President Obama both directed the use of the military to assist DHS in securing and managing the
Southern Border.

140
•

Former President Bush declared a national emergency in 2001, which invoked reprogramming authority granted by Title 10 United States Code, section 2808, and both he and former President Obama
used that authority a total of 18 times to fund projects between 2001 and 2014.

ADDRESSING THE CRISIS AT HAND:
President
Trump is taking the necessary steps to address the crisis
at our Southern Border and stop crime and drugs from
flooding into our Nation.

•

Cartels, traffickers, and gangs, like the vile MS-13
gang, have taken advantage of our weak borders for
their own gain.

•

Immigration officers have made 266,000 arrests of
criminal aliens in the last two fiscal years.
• This includes aliens charged or convicted of approximately 100,000 assaults, 30,000 sex crimes,
and 4,000 killings.

•

Tons of deadly drugs have flooded across the border
and into our communities, taking countless American lives.
• Methamphetamine, heroin, cocaine, and fentanyl all flow across our Southern Border and destroy our communities.
• More than 70,000 Americans died of drug overdoses in 2017 alone.

•

Human traffickers exploit our borders to traffic
young girls and women into our country and sell
them into prostitution and slavery.

141
•

Massive caravans of migrants view our unsecure
border as a way to gain illegal entry into our country
and take advantage of our nonsensical immigration
loopholes.

142

* * * * *
Q Thank you, Mr. President. I just want to say, in
the past, when President Obama tried to use executive
action as it related to immigration, you said, “The whole
concept of executive order, it’s not the way the country
is supposed to be run.” You said, “You’re supposed to
go through Congress and make a deal.” Will you concede that you were unable to make the deal that you had
promised in the past, and that the deal you’re ending up
with now from Congress is less than what you could have
had before a 35-day shutdown?
THE PRESIDENT: No. Look, I went through Congress. I made a deal. I got almost $1.4 billion when I
wasn’t supposed to get one dollar—not one dollar.
“He’s not going to get one dollar.” Well, I got $1.4 billion. But I’m not happy with it. I also got billions and
billions of dollars for other things—port of entries, lots
of different things. The purchase of drug equipment.
More than we were even requesting.

143
In fact, the primary fight was on the wall. Everything
else, we have so much, as I said, I don’t know what to do
with it we have so much money. But on the wall, they
skimped.
So I did—I was successful, in that sense, but I want to
do it faster. I could do the wall over a longer period of
time. I didn’t need to do this. But I’d rather do it
much faster. And I don’t have to do it for the election.
I’ve already done a lot of wall, for the election—2020.
And the only reason we’re up here talking about this is
because of the election, because they want to try and win
an election, which it looks like they’re not going to be
able to do. And this is one of the ways they think they
can possibly win, is by obstruction and a lot of other nonsense.
And I think that I just want to get it done faster,
that’s all.
* * * * *

